<html>
<title> - [H.A.S.C. No. 115-41] OVERVIEW OF THE ANNUAL REPORT ON SEXUAL HARASSMENT AND VIOLENCE AT THE MILITARY SERVICE ACADEMIES</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]


                                
 
                         [H.A.S.C. No. 115-41]

                    OVERVIEW OF THE ANNUAL REPORT ON

                     SEXUAL HARASSMENT AND VIOLENCE

                   AT THE MILITARY SERVICE ACADEMIES

                               __________

                                HEARING

                               BEFORE THE

                   SUBCOMMITTEE ON MILITARY PERSONNEL

                                 OF THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                              HEARING HELD

                              MAY 2, 2017

                                     
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

                                     
                              __________
                                            

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
25-834 PDF                  WASHINGTON : 2018                     
          
----------------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="5d3a2d321d3e282e293538312d733e323073">[email&#160;protected]</a>   


                  
                  
                  SUBCOMMITTEE ON MILITARY PERSONNEL

                    MIKE COFFMAN, Colorado, Chairman

WALTER B. JONES, North Carolina      JACKIE SPEIER, California
BRAD R. WENSTRUP, Ohio, Vice Chair   ROBERT A. BRADY, Pennsylvania
STEVE RUSSELL, Oklahoma              NIKI TSONGAS, Massachusetts
DON BACON, Nebraska                  RUBEN GALLEGO, Arizona
MARTHA McSALLY, Arizona              CAROL SHEA-PORTER, New Hampshire
RALPH LEE ABRAHAM, Louisiana         JACKY ROSEN, Nevada
TRENT KELLY, Mississippi
                 Dan Sennott, Professional Staff Member
                Craig Greene, Professional Staff Member
                         Danielle Steitz, Clerk
                           
                           
                           C O N T E N T S

                              ----------                              
                                                                   Page

              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Coffman, Hon. Mike, a Representative from Colorado, Chairman, 
  Subcommittee on Military Personnel.............................     1
Speier, Hon. Jackie, a Representative from California, Ranking 
  Member, Subcommittee on Military Personnel.....................     2

                               WITNESSES

Panel 1:

  Bullard, Ariana................................................     4
  Craine, Midshipman Second Class Sheila, United States Naval 
    Academy......................................................     4
  Gross, Stephanie...............................................     7
  Kendzior, Annie................................................     9

Panel 2:

  Carter, VADM Walter E., Jr., USN, Superintendent, United States 
    Naval Academy................................................    33
  Caslen, LTG Robert L., Jr., USA, Superintendent, United States 
    Military Academy.............................................    32
  Johnson, Lt Gen Michelle D., Superintendent, United States Air 
    Force Academy................................................    34
  Van Winkle, Dr. Elizabeth P., Performing the Duties of 
    Assistant Secretary of Defense for Readiness.................    30

                                APPENDIX

Prepared Statements:

    Carter, VADM Walter E., Jr...................................    85
    Caslen, LTG Robert L., Jr....................................    72
    Coffman, Hon. Mike...........................................    61
    Johnson, Lt Gen Michelle D...................................    96
    Kendzior, Annie..............................................    62
    Van Winkle, Dr. Elizabeth P..................................    65

Documents Submitted for the Record:

    Document from LTC Elizabeth A. Walker, Army Office of the 
      Chief Legislative Liaison..................................   115

Witness Responses to Questions Asked During the Hearing:

    Mr. Coffman..................................................   119
    Ms. Speier...................................................   119

Questions Submitted by Members Post Hearing:

    Ms. Rosen....................................................   123


OVERVIEW OF THE ANNUAL REPORT ON SEXUAL HARASSMENT AND VIOLENCE AT THE 
                       MILITARY SERVICE ACADEMIES

                              ----------                              

                  House of Representatives,
                       Committee on Armed Services,
                        Subcommittee on Military Personnel,
                              Washington, DC, Tuesday, May 2, 2017.
    The subcommittee met, pursuant to call, at 3:34 p.m., in 
room 2118, Rayburn House Office Building, Hon. Mike Coffman 
(chairman of the subcommittee) presiding.

 OPENING STATEMENT OF HON. MIKE COFFMAN, A REPRESENTATIVE FROM 
     COLORADO, CHAIRMAN, SUBCOMMITTEE ON MILITARY PERSONNEL

    Mr. Coffman. This hearing is called to order. I want to 
welcome everyone to this afternoon's Military Personnel 
Subcommittee hearing. The purpose of today's hearing is to 
receive an overview of the annual report on sexual assessment. 
I am sorry, Annual Report on Sexual Harassment and Violence at 
the Military Service Academies, and to understand the ongoing 
efforts the academies have undertaken to prevent sexual 
assault.
    We will also have the privilege of hearing from survivors 
of sexual assault who were assaulted while attending a service 
academy, and we thank them for being here today.
    The Nation and the military continue to battle the scourge 
of sexual assault. These despicable crimes cause deep and 
enduring suffering to the victims and their families and 
violate our fundamental values. When these crimes occur in the 
military, the effects can be even more damaging. Service 
members must have absolute trust and confidence in their fellow 
service members in order to accomplish their difficult mission.
    Cadets and midshipmen at the military service academies are 
told from the beginning of their tenure that the only way to 
succeed at the Academy is to work as a team, and place their 
trust in each other. But when a cadet takes advantage of that 
trust in order to assault another, the sense of betrayal is 
profound, and the impact is often felt by the victim and the 
entire unit. These crimes have no place in our society, much 
less in our preeminent military service academies.
    Over the last several years, the military service academies 
have dedicated numerous resources and time to improving sexual 
assault prevention and response. The service academies have 
integrated sexual assault prevention and values-based training 
into nearly every aspect of their curriculum, ensuring that the 
military's future officers internalize the military's values 
before being commissioned.
    In addition, the service academies have worked hard to 
ensure that all allegations are thoroughly investigated and 
perpetrators are held accountable, while also ensuring 
survivors of sexual assault have access to vital resources.
    Despite all these efforts, there remains much work to be 
done. This year's report shows that prevalence rates have 
increased at all service academies, while reports of sexual 
assaults have decreased at one of the service academies. In 
addition, the significant prevalence of sexual harassment, a 
data point that is new to the survey, shows that additional 
work is needed.
    We will hear from two panels this afternoon. In panel one, 
we are honored to have with us survivors of sexual assault. I 
want to thank the witnesses for their bravery in testifying 
today, and I appreciate how difficult it is to talk about this 
subject. Your testimony will give all of us important insights 
into how the service academies in the military can improve 
sexual assault prevention and response.
    In our second panel, we will hear from the Department of 
Defense and the superintendents of the military service 
academies. I look forward to hearing their views on the results 
of the sexual assault report, and I also look forward to 
hearing about the new and existing programs at the service 
academies designed to prevent sexual assault.
    Before I introduce our first panel, let me offer the 
ranking member, Ms. Speier, an opportunity to make her opening 
remarks.
    [The prepared statement of Mr. Coffman can be found in the 
Appendix on page 61.]

    STATEMENT OF HON. JACKIE SPEIER, A REPRESENTATIVE FROM 
 CALIFORNIA, RANKING MEMBER, SUBCOMMITTEE ON MILITARY PERSONNEL

    Ms. Speier. Mr. Chairman, thank you, and thank all of you 
who will be participating in this hearing. I would like to ask 
unanimous consent that a document from Lieutenant Colonel 
Elizabeth Walker, legislative counsel for the investigations 
and legislative division of the Army Office of Chief 
Legislative Liaison be admitted into the record.
    Mr. Coffman. Any objection? So ordered.
    [The information referred to can be found in the Appendix 
on page 115.]
    Ms. Speier. Thank you. Mr. Chairman, I thank you for 
holding this hearing. This is an issue that I care deeply 
about. Sexual assault in our military and military service 
academies is a scourge on our Nation.
    We depend on our academies to attract and develop our 
Nation's future leaders. Even one sexual assault against these 
patriotic young individuals is too many, and we all know that 
the numbers of assault are far more than that.
    But women and men are victimized by sexual assault--both 
women and men are victimized by sexual assault and harassment 
at the service academies, creating a toxic culture that follows 
these students straight into military leadership. Survivors of 
sexual assault often leave the academies under their own 
volition, or are forced out, depriving our military of future 
leaders. Perpetrators of these heinous acts often go 
unpunished, graduate, reinforcing this criminal and abhorrent 
behavior. This also emboldens them to continue to assault their 
fellow service members as they ascend up the ranks.
    In order to break the cycle, we need strong reforms to make 
clear that this behavior is not tolerated. In fact, the only 
result in cases like this should be dismissal.
    Military leadership for literally decades has testified 
that they are of one mind, that they have zero tolerance for 
sexual assault. The tens of thousands of survivors of these 
heinous acts, subsequent retaliation, at times, ineptitude of 
their chain of command, makes a mockery of this stated policy.
    Words alone are just words. If we have any hope of stamping 
out the systemic issue of sexual assault in our ranks, the tone 
must be set at the academies. This isn't just about right and 
wrong, but being able to attract the very best to serve, and 
the readiness and unit cohesion within our fighting force. 
Nothing short of the future of our military depends on us 
getting this right.
    The Department of Defense Annual Report on Sexual Assault 
and Harassment in the Service Academies for Academic Years 
2015-2016 show a complete failure in addressing this epidemic. 
Twelve percent of women in the academies experience sexual 
assault; 12 percent. And nearly one-half, one-half, face 
persistent sexual harassment. Simply put, this is disgusting.
    Since the last report in 2014, fewer students at the 
service academies have reported sexual assault and harassment, 
but the estimated rates of unwanted sexual conduct have 
increased. Both of these are trending in the wrong direction.
    One reason could be the ostracism of sexual assault 
victims. Forty-seven percent of those who reported the unwanted 
sexual contact experienced social isolation and maltreatment. 
We must foster an environment at the service academies in which 
students who have been sexually assaulted or harassed feel like 
they can come forward without fear of retaliation.
    I would like to hear from our second panel of witnesses 
today on steps they are taking to reverse these disturbing 
trends to ensure that young cadets and midshipmen enter the 
military ranks as leaders who bring a culture of respect and 
dignity to their service.
    But before we hear from the service academies and the 
Department of Defense, I want to welcome the courageous 
survivors who are testifying on our first panel. Annie Kendzior 
attended the United States Naval Academy from 2009 to 2011; 
Midshipman Second Class Sheila Craine currently attends the 
U.S. Naval Academy; and Stephanie Gross and Ariana Bullard are 
former cadets at the U.S. Military Academy at West Point.
    Some of the stories you will hear today are heartbreaking 
and revolting. These cadets and midshipmen did nothing wrong by 
reporting their assaults, and yet, their chain of command 
failed them, and the chain of command that was supposed to 
actually protect them, failed.
    We cannot tolerate this lack of accountability in our 
country's most prestigious military institutions. I look 
forward to hearing from our witnesses today, and I yield back, 
Mr. Chairman.
    Mr. Coffman. Thank you, Ms. Speier. I ask unanimous consent 
that nonsubcommittee members be allowed to participate in 
today's hearing after all subcommittee members have had an 
opportunity to ask questions.
    Is there objection?
    Without objection, nonsubcommittee members will be 
recognized at the appropriate time for 5 minutes.
    We will give each witness the opportunity to present his or 
her testimony, and each member an opportunity to question the 
witnesses for 5 minutes. We would also respectfully remind the 
witnesses to summarize, to the greatest extent possible, the 
high points of your written testimony in 5 minutes or less.
    Your written comments and statements will be made part of 
the hearing record. Let me welcome our first panel, Midshipman 
Second Class Sheila Craine, United States Naval Academy; Ms. 
Ariana Bullard--did I say it right?
    Ms. Bullard. Bullard.
    Mr. Coffman. Bullard, former cadet at the United States 
Military Academy; Ms. Stephanie Gross, former cadet at the 
United States Military Academy; Ms. Annie Kendzior, former 
midshipman at the United States Naval Academy.
    With that, Midshipman Second Class Craine, you may now make 
your opening remarks.

  STATEMENT OF MIDSHIPMAN SECOND CLASS SHEILA CRAINE, UNITED 
                      STATES NAVAL ACADEMY

    Ms. Craine. Thank you, ladies and gentlemen. Thank you for 
allowing me this opportunity to speak of my experiences through 
this process.
    I am here as an individual and do not represent the views 
or opinions of the United States Naval Academy. In the spring 
semester of my freshman year, I had experienced unwanted sexual 
contact. In the fall semester of my sophomore year, I filed an 
unrestricted report about the incident through the SAPR [Sexual 
Assault Prevention and Response] office, of course.
    I was overwhelmed by the support I received by the faculty 
and staff at the Naval Academy. The case concluded in the fall 
of 2016. The individual was dismissed and is no longer a 
midshipman at the United States Naval Academy.
    Though the whole process was difficult, I am confident in 
saying that the resources that were, and still are provided to 
me, helped me through the healing process to this day. Thank 
you.
    Mr. Coffman. Ms. Bullard, you are now recognized for 5 
minutes.

                  STATEMENT OF ARIANA BULLARD

    Ms. Bullard. Hello. My name is Ariana Bullard. I am a 
former cadet of the United States Military Academy. I attended 
West Point from July 2013 until I was honorably discharged in 
2015, when I went on to attend The Ohio State University.
    First off, I would like to thank Congresswoman Speier and 
her staff for having me here. I left West Point the day I was 
discharged from the hospital suffering from stress-induced high 
blood pressure. I found that all my belongings had been packed 
without my knowledge. In the cold of January, I was only left 
with a pair of shorts, a jacket, and sandals for my return home 
to Indiana. I was only then escorted onto the plane by two MPs 
[military police] because my ID was shipped off with my 
belongings.
    As soon as I boarded the plane, I was escorted off by those 
MPs and was told that the captain who had been retaliating 
against me wanted to speak to me. He asked me if I wanted to 
return to the Thayer Hotel. I replied that I wanted to stay, 
but was confused at what he meant, as I had no money to pay for 
it or clothing. He hung up and took my answer as a no.
    After I landed, I received a call from Sue Fulton on the 
Board of Visitors from West Point asking why I said no to 
General Caslen asking me if I wanted to stay a cadet at the 
Academy. I realized only then why I received a convoluted call 
from the captain. If I had known, my answer would have been 
yes.
    Despite all that had happened to me, I would rather have 
stayed than been forced out of West Point. I was recruited to 
West Point to be on the swim team, where I consistently 
experienced racial and sexual harassment.
    My ex-boyfriend, who was Caucasian, was called Django, 
referring to the movie, ``Django Unchained,'' solely because he 
was in a relationship with me. I was told later by a captain on 
the men's team and a colonel that nicknames were a tradition on 
the men's team.
    In December, the team went to Puerto Rico, where members of 
the swim team made lewd remarks about my body, how my bathing 
suit fit, and talked openly about having sex with me. I 
protested this treatment to my coaches and faced escalating 
reprisal as a result. A team was supposed to be a group of 
individuals with a set of skills required to complete a task. 
If we are not simply able to swim together, how are we able to 
fight together to defend this country?
    The head coach further went on to punish me by forcing me 
to practice alone for 2 weeks before our biggest championship 
meet, the Patriot League.
    The assistant coach, as a result, decided to take it upon 
himself to make sure I was properly trained. Every day I 
practiced an hour before the rest of the team, only to have 
them ostracize me more because a few thought I was given 
special treatment.
    At the Patriot League, I broke multiple League and Army 
records, resulting in winning the Rookie of the Meet. That day, 
the Navy vice admiral shook my hand in congratulations and said 
to me: ``Tell Caslen, Army won this time.'' However, I no 
longer felt a part of the Army team, so I swam with anger just 
to prove a point that no one could bring me down, and that day 
they didn't.
    We were taught in basic, and in the Army in general, to 
always protect your battle buddy, never leave them behind. Then 
how come I was left behind?
    In March 2014, the Equal Opportunity Office substantiated 
my case of racial discrimination. I also filed a complaint with 
the SHARP [Sexual Harassment/Assault Response and Prevention] 
office, where in November 2014 the complaint was substantiated 
as harassment but not sexual harassment.
    I then became friends with Cadet Gross. During her second 
assault case, I was present when a drunk cadet burst into her 
room. As curfew rolled around, I had to return to my room 
expecting the cadet, taking accountability, would remove him.
    A short while later, Cadet Gross called me and was 
hysterical. I immediately went to her room and saw the 
distraught and battered state that she was in. With new bruises 
forming on her neck and chest, she told me repeatedly she would 
never report again, as no one would believe her, that she had 
no faith she would be taken care of.
    Still having trust in the system, I urged her to report. I 
told her that we needed to do this for others after us. Even 
though I was left behind, I refused to do the same to her. We 
needed to set an example.
    However, the system failed once again as my friend and I 
was retaliated against repeatedly. I was forbidden to accompany 
her to the hospital, and was prohibited from socializing with 
her and forced to sign a confidentiality form stating I would 
not discuss her case with anyone. I was subjected to arbitrary 
discipline and filed a whistleblower reprisal complaint. Excuse 
me. Eventually, in January 2015, I felt I had no option but to 
resign.
    Although the processing of resignation normally takes a 
month or so, mine was expedited to 1 day, and to my detriment. 
I collapsed in the barracks and was admitted to the hospital 
suffering from that high blood pressure by stress.
    When Stephanie tried to visit me in the hospital, she was 
confronted by her command and told that the only way she could 
remain in the hospital with me was if she admitted herself for 
a psychiatric evaluation. The command made clear that I was to 
be punished by being isolated during a time of great fear and 
uncertainty.
    I wrote a resignation letter in January 2015. This is the 
letter I submitted to General Caslen, which all levels of 
leadership must read and sign. In that letter, I write, ``I 
don't want to be in a place that allows perpetrators to remain 
in their ranks. I don't believe in double standards. West 
Point's honor code is abided by the cadets. However, a few 
officers themselves aren't held to the same standard of the 
honor code or aren't held at all. I resign because that is all 
I can do because that is what I am forced to do to protect my 
own well-being and goals considering all these issues.''
    General Caslen, I spoke with you before leaving West Point. 
In that 3-hour discussion, you told me you believed I would be 
a great leader and asset to the Army. Though you told me you 
did not want to sign my resignation, you handed me a 
resignation, and I asked you if there would be any change if I 
stayed. You remained silent.
    Instead, the numbers of reports have doubled since I have 
last been at West Point. Two years ago, Congress asked why we 
were here, and the answer was to help the Academy and to 
prevent what happened to us from other cadets. After 2 years, 
we are back here again, and our answer to that question hasn't 
changed. I hope we can come up with a solution that will mend 
the system that desperately needs fixed for the sake of our 
future cadets and officers.
    With the support of Congresswoman Speier, I would like to 
return to the Academy to complete what I started. I believe I 
can be an asset to other female cadets, and I take General 
Caslen at his word when he said to me that I could be a great 
leader and officer in the United States military. Thank you.
    Mr. Coffman. Thank you, Ms. Bullard.
    Ms. Gross, you are now recognized for 5 minutes.

                  STATEMENT OF STEPHANIE GROSS

    Ms. Gross. Thank you, sir. Hello. My name is Stephanie 
Gross. I am a former cadet of the United States Military 
Academy as well. I would like to first thank Congresswoman 
Speier's office and her staff for extending an invitation to 
testify before you today regarding my time as a cadet at West 
Point.
    In truth, I still have a great love for West Point, and I 
respect and admire the training program for our Nation's future 
leaders. I entered West Point at 18 years old with the class of 
2016 on July 2, 2012. I was honorably discharged on February 
13, 2015.
    Over the 2 years, 8 months of being at West Point, I was 
switched between companies a total of four times, compared to 
once for most cadets. Because of this, I had little stability 
and leadership during my time there, and this contributed 
greatly to my difficulties at West Point.
    My first sexual assault at West Point was reported by 
medical personnel in the spring of my freshman year at the 
Academy. I was in the hospital recovering from an emergency 
pelvic surgery that was found to be related to the assault. My 
surgeon advised me, when he walked in, that he was unsure, due 
to the inflammation and potential for scarring, if I would ever 
be able to bear children. I later broke down to a nurse, and 
thus, my restricted report was initiated.
    I felt reporting would only cause further damage 
emotionally, and I requested my report remain restricted 
without investigation. My case was later reported by my 
commander as he became aware of the incident, and legally had 
to report via the unrestricted route.
    The next day, the SARC [Sexual Assault Response 
Coordinator] office pressured me for a name, telling me that if 
I was a strong woman, with duty and honor, I would comply. I, 
again, resisted.
    At this time, in 2013, USMA [United States Military 
Academy] had not yet embraced special victims' attorneys, and I 
was without legal counsel. If legal counsel had been present, I 
feel my case would have stayed restricted as I desired and my 
difficulties in reporting, such as 13-hour CID [Army Criminal 
Investigation Command] interrogations, would have been minimal. 
My report was determined to be unfounded.
    My second case was founded on the basis of assault, but the 
report concluded that there was insufficient evidence to find 
the higher charge of aggravated sexual contact. The 
investigators refused to take my clothing for testing and 
refused to take a blood alcohol level test of my assailant on 
the night of the incident, contributing to the decision of the 
case.
    The addition of the newly implemented special victims' 
attorney was increasingly helpful in this case, though. In the 
months prior to my resignation, I was subjected to many 
negative personnel actions with a pattern that indicated 
reprisal. Every time I would initiate a report, a few days 
later I would receive a new punishment. From drug testing that 
was negative, mental health evaluations that cleared me for 
duty, room inspections, and misconduct related to 
insubordination, were among the actions against me.
    As these actions increased, I became desperate, and this, 
not surprisingly, was very damaging to me academically after 
missing many courses for the investigation, and I began to feel 
as if I had no other option but to leave the Academy.
    I decided to begin asking for open-door policy meetings 
with my leaders, hoping that I could speak to them in smaller, 
lower-tension settings, to ask for their mentorship and 
determine why my situation became so distorted. My entire chain 
of command denied me.
    I then asked Lieutenant General Caslen. Lieutenant General 
Caslen, I emailed you in desperation to let me speak with you 
privately before you made decisions on the misconduct reported 
against me. You, too, denied my request. I desired the chance 
to add context to those grim black and white words that you 
chose to judge me by, prepared by somebody else like those 
papers you have today, that I found that one JAG [Judge 
Advocate General] captain had influence over almost every 
factor of my case. I wanted to tell you that I was sorry for 
the mistakes I did make and that I looked up to you as a 
leader.
    Even with those mistakes, I did not deserve to be treated 
the way that I was. I later found from a DOD [Department of 
Defense] agent that you stated you cared greatly for me as a 
cadet, and you instructed my chain of command to protect me and 
aid my success in any way they could. Unfortunately, I never 
heard these things. From my perspective, each time I reported 
an action, I received punishment, and in denying my open-door 
policy request, you confirmed my suspicions that I was not 
wanted at your institution.
    If I had felt my chain of command truly cared for me and 
wanted me to succeed, I would have felt differently about my 
situation. It was the idea that the chain of command had given 
up on me that ultimately sealed my actions to leave the 
institution, despite my desires to serve my country.
    I do not blame West Point as an institution for my 
situation. I blame the systematic failure of leadership who 
relied on blind loyalty to make judgments about an individual 
they had never spoken to. I believe that if the open-door 
policy had been a reality, and I had been allowed to tell my 
side of the story to the leadership, I may have been able to 
stay.
    A system of investigating and prosecuting complaints of 
assault that leaves great power in the hand of one individual, 
or single individuals, motivated by career and institutional 
goals, is not an effective mechanism for victims. After signing 
my oath, the first thing given to me was a small business card 
with the cadet honor code. Next written on the board was the 
Soldier's Creed, ``I am an American soldier. I am a warrior and 
member of a team. I serve the people of the United States and I 
live the Army values. I will always place the mission first. I 
will never accept defeat. I will never quit. I will never leave 
a fallen comrade.'' And later, ``I am disciplined. I am a 
professional.''
    These are the words that inspired me to continue, even when 
I had nothing to gain and everything to lose, when I decided to 
report to help better the Academy instead of following advice 
to keep my head down and not say anything.
    These are the reasons that I would also like to return to 
the Academy and complete my time there, as I believe actions 
speak louder than words, and simply coming here and stating a 
problem does nothing to guarantee a solution with no action.
    With the support of Congresswoman Speier's office, I have 
decided to reapply for admission to the United States Military 
Academy to finish the education and training I began in 2012. I 
truly believe that the military and West Point has made 
positive strides to fix this problem and understands that 
assaults occur on many college campuses, but the service 
academies specifically should be role models for the Nation and 
the world.
    Former Cadet Bullard and I were part of a group of four 
individuals who were friends who reported sexual assault and 
harassment at the Academy. Out of the four of us, none remain. 
West Point and all of the service academies are the functional 
units of change for the future of our Armed Forces. There is 
much more work to be done. Thank you for your time.
    Mr. Coffman. Thank you, Ms. Gross.
    Ms. Kendzior, you are now recognized for 5 minutes.

                  STATEMENT OF ANNIE KENDZIOR

    Ms. Kendzior. Good afternoon. In 2008, I was a recruited 
athlete who was inducted into the United States Naval Academy. 
Prior to acceptance, my parents were concerned for my safety, 
given the then sexual assault scandal which was unfolding at 
the Air Force Academy, and during a campus visit, my parents 
and I were told by the Naval Academy representatives, including 
my coaches and the athletic director, that the Naval Academy 
did not have a sexual assault problem and that I would be safe.
    Shortly after the academic year began, I experienced two 
horrible and traumatic events. I was raped not only once, but 
twice, both times by fellow classmates in my company who I had 
to face every single day. My emotional state began to 
deteriorate, and I went to the Naval Academy medical facility.
    During my intake evaluation, I told the treating physician 
that I had been raped, who did not ask when, did not ask where 
it had occurred, but simply checked a box on my intake form and 
prescribed me an antidepressant. These events set the tone for 
my remaining 2 years at the Naval Academy.
    The culture at the Academy is that of a ``boys only'' club, 
where men are considered superior to women, where women are 
frequently referred to as DUBs, which stands for ``dumb ugly 
bitch,'' or other derogatory terms which most women want to be 
accepted, say nothing, and quickly adapt to the culture.
    After 2\1/2\ years of sheer emotional hell, I broke down 
mentally, and was sent by my chain of command to the 
psychiatric ward at Bethesda Hospital. I spent 3 days there and 
was diagnosed with borderline personality disorder by a nurse 
practitioner, not a licensed medical doctor.
    I thought that if I could get a transfer out of my company 
that I would be okay, and I made a request every semester to my 
company command, who refused to transfer me every semester.
    I felt my life slipping away, and as a final effort, 
requested Mast with the then-Commandant of Midshipmen, Captain 
Robert Clarke. Upon discussing my situation with the 
commandant, he told me to grow up, and within days, began the 
separation process.
    In July of 2011, an academic review board was called, which 
I thought was unusual, given my overall good academic record. 
During my hearing, members of the board openly discussed my 
sensitive personal medical records, all of which without my 
consent, and in the end, used my past medical treatments as a 
basis for my separation.
    The Academy found it easier to label me as having a 
personality disorder than to treat me for the trauma of being 
raped. It seems the motto of the U.S. Marine Corps ``leave no 
man behind'' does not apply to the men and women who are raped. 
Instead, they are frequently and intentionally left behind to 
deal with the pain, anguish, and long-term emotional stress, 
while the rapist's career continues without any consequence.
    The Navy continues to defend the ever-growing claims of 
military sexual assaults at the Naval Academy as small, and 
that those women who reported being raped were just mentally 
ill. How shameful. Military leaders then and now defend the 
growth rate as being good, claiming that they are glad to hear 
that women are coming forward to report their rapes. What they 
don't seem to get is that more rapes are bad and that they 
continue due to their failure by military leaders to address 
the root cause, that there is a small but active group of 
rapists whose crimes are rarely investigated, let alone 
prosecuted, and the military finds it easier to destroy the 
life of the victims.
    The word is out. If you are a rapist, go into the military 
where you will be protected after you rape somebody. I was 
processed out of the Academy while my rapists are now serving 
as officers, potentially victimizing more people. Victims who 
see the treatment of those before them, such as myself, are not 
likely to come forward like I did, for they know what will be 
the consequences.
    Upon leaving the Naval Academy, all forms of medical 
treatment and counseling ended. I was on my own to fend for 
myself. Thanks to the support of my family, I was able to get 
the treatment I needed, which began with weaning me off the 
drugs prescribed to me by the military doctors, drugs that 
created the very personality disorders I was exhibiting.
    After more than 5 years of detox, I am now off of all 
prescribed medications, and I am in PTSD [post-traumatic stress 
disorder] treatment that was developed, in fact, by a former 
military Green Beret. I was denied the opportunity of 
completing my education at the Naval Academy, given I only had 
1 year remaining. I will never forget the day that I had to 
return my class ring, which represented the 3 years of hell 
that I had to endure.
    All I wanted and asked for was to complete my education 
while getting proper treatment and serve my country as a naval 
officer, all of which was denied to me by my Naval Academy 
leadership. Thank you.
    [The prepared statement of Ms. Kendzior can be found in the 
Appendix on page 62.]
    Mr. Coffman. Thank you, Ms. Kendzior.
    I would like to ask each one of you--I am going to ask you 
the same question. What is the policy or procedure that you 
would most like to see changed in sexual assault cases?
    Midshipman Craine, let me start with you and then I will 
move to the right.
    Ms. Craine. As for a policy change that I would like to 
see, the policy and the way I reported was so easy for me. It 
was so effortless. I just had to walk down to the SAPR office 
and tell them my story, that I didn't want to--I didn't feel 
the need that there was anything that I would have wanted to 
change about it, about that process, about the reporting, about 
the whole, you know, the case itself.
    For me, it just worked out very well. It was a very 
positive experience in that manner, so I wouldn't be able to 
provide an answer in that.
    Mr. Coffman. Ms. Bullard.
    Ms. Bullard. Sir, I have experienced sexual harassment, so 
if you don't mind if I speak on a policy change that I would 
like to change on that.
    In the recent report about sexual harassment, sexual 
assault, I see the only change they have done for at least 
sports team, is what they call a ``teal team,'' where cadets 
will wear T-shirts, and when they go to this game, they get 
free concessions, and this is their awareness for sports for 
sexual harassment, sexual assault. And I don't believe that an 
``It's on Us'' shirt is going to fix a problem for cadets.
    I think there is a deeper understanding that is missing 
there. So if there is a policy that I think needs to change, I 
think it has to start from the cadets, and I think that there 
needs to be some sort of understanding, again.
    Mr. Coffman. Thank you. Ms. Gross, what is the policy or 
procedure that you would most like to see changed in sexual 
assault cases?
    Ms. Gross. Yes, sir. So one of the reasons cited that 
General Caslen was unable to meet with me for the open-door 
policy is that----
    Mr. Coffman. Please move your microphone a little closer.
    Ms. Gross. Oh, I am sorry, sir.
    Mr. Coffman. Thank you.
    Ms. Gross. Is that better?
    Mr. Coffman. Yes.
    Ms. Gross. Okay. Thank you. One of the reasons cited that 
General Caslen was unable to meet with me through the open-door 
policy was that he was conflicted as I was under investigation 
for misconduct. And I understand that his position requires him 
to have that oversight and not be in conflict, but if the open-
door policy is specifically for retaliation under sexual 
assault or harassment, maybe there is some provision that can 
be made so that these victims can go to the superintendent if 
they need to, if that is the only person left that will talk to 
them.
    Mr. Coffman. Ms. Kendzior, what is the policy or procedure 
that you would most like to see changed in sexual assault 
cases?
    Ms. Kendzior. So for me, my first person to report to was a 
fellow midshipman. I believe he was a senior at the time, I was 
a junior, and that, in my opinion, was wrong. I don't think I 
need to be telling what happened to me to a fellow classmate, 
or even a person who is a year older than me.
    If you guys don't know, the Academy, at least the Naval 
Academy, is a huge rumor mill, rumors spread fast, and telling 
a peer just opens that door up to more rumors.
    As for another policy, I believe that, you know, they 
should not be just educating the midshipmen about these things. 
They should also educate the leadership and the staff of these 
academies to be able to help identify signs of those who are 
raped, maybe go to them and ask and talk to them about it.
    For right now, midshipmen are just trained by their peers, 
and that is what I went through, a training of, you know, 
midshipmen teaching midshipmen, and to be honest, nobody took 
it seriously, at least the classes I attended.
    Mr. Coffman. Thank you. Midshipman Craine, I don't know if 
you mentioned this, but some of the panelists have mentioned 
retaliation. If you experienced retaliation, was it through 
social media or in person? And also, if you experienced 
retaliation, did you report that?
    Ms. Craine. So in my case, the person who assaulted me was 
in the same company as me, which provides a very unique 
situation in which I have to see that person every single day. 
We have mutual friends. We were in the same class, the same 
company.
    In terms of retaliation, people found out very quickly that 
something was going on, and he was more liked than me, so what 
ended up happening is more people didn't--people didn't know 
which side to choose, became almost like a choose-a-side 
situation in which I was presented the opportunity to leave the 
company as to not experience retaliation.
    So I chose--it was either him or me, but I decided to leave 
the company because I felt more comfortable in leaving the 
company than having to experience, in case I would have 
experienced retaliation if he had left and then I had stayed. 
So in terms of that, that is how I--dealt with that.
    Mr. Coffman. Thank you. My own time is expiring, so if you 
could all go very quickly.
    Ms. Bullard, I think you mentioned experiencing 
retaliation. Was it through social media or in person, and did 
you report the retaliation in and of itself?
    Ms. Bullard. Yes, sir, I did report the retaliation, which 
caused me to receive more misconduct on my part and--not on my 
part, but you know, people retaliating against me and I am 
having misconduct taken against me.
    And again, to your first question, I think there is too 
many hands in the pot for investigations. The investigating 
officers, most times, are not--have some sort of relations 
either to someone who is in charge of me or someone in charge 
of someone--of my victim. It is--sorry. Sorry I am being really 
emotional right now.
    But I think there needs to be a third party checking on 
this is what I am trying to say.
    Mr. Coffman. Ms. Gross.
    Ms. Gross. Sir, briefly, with my case, an app called Yik 
Yak was very prominent at the Academy during this time, and so, 
unfortunately, a lot of my retaliation on my peers occurred on 
the Yik Yak app. I walked around campus with very visible 
bruises on my neck that couldn't be hidden by uniform, and so 
it was very public who I was given the name on the left side of 
my chest. And so--or the right side.
    And so from there, I couldn't report it, because there was 
no way to determine who it was. It was just liked by 300 
people. You know, secondarily to that, I was moved four times, 
and I was asked the first time to move, second time, I was not, 
and that is usually considered a problem at the Academy.
    Mr. Coffman. Ms. Kendzior, can you give me your view very 
quick. I am sorry, I am over time.
    Ms. Kendzior. Yes. For me, it was a lot of rumors. They 
were rampant, like I said earlier. I was labeled a slut who got 
around, but really, my process of separation happened really 
quickly. So most of the retaliation came after I was already 
separated, from peers contacting me and saying negative things 
towards me about what I did.
    Mr. Coffman. Ms. Speier.
    Ms. Speier. Mr. Chairman, I am going to hold my questions 
till the end and allow my colleagues to my left to ask theirs.
    Mr. Coffman. Ms. Tsongas.
    Ms. Tsongas. Well, I thank you all for being here. This is 
certainly an issue that this committee has spent a good time 
looking at, and you are providing additional insight that is 
much needed. It is so hard to tell your story, but I appreciate 
the determination and tenacity all of you are bringing to your 
presence here, and to your continued desire to serve your 
Nation. I thank you for that, despite all of this.
    We focused a bit on the assaults, but I am curious about 
the cultural issues, and I think much of the sexual harassment 
that you all experienced is rooted in a culture that has yet to 
fully embrace the diversity of the corps, the different corps 
that you are a part of.
    And what I would like to hear from each one of you is let's 
just say from the day--day one, as you made your way into your 
particular academy, if you experienced things that you would 
like the academies to take note of as they begin to think more 
broadly, not just about the particular crimes, but how they 
create an inclusive culture. So we will start with you.
    Ms. Craine. Thank you. From day one, I would definitely say 
that it is important to note that the upper class play a huge 
role in setting the command climate of each company. I was a 
plebe when this happened, and I came into this and I thought 
this was okay, and that, to me, was scary. And I knew deep down 
inside it wasn't okay, so I reported, but I had the support of 
my roommates at the time and my very close friends, and it was 
good that they had supported me in reporting.
    But at the same time, I didn't feel confident in relying in 
that chain of command of midshipmen at the time, so the culture 
does have an impact, especially the training and the awareness 
that the upper class have, especially on plebes, on underclass, 
in regards to sexual assault and harassment.
    Ms. Bullard. Regarding mine, I would say kind of similar to 
what Ms. Kendzior said. There is a loyalty there. My time, 
especially on, like, the sports team, I know very well. I had 
to swim with a guy that I dealt with sexual harassment. Every 
single day I saw him, and I'd have to swim with him in that 
pool, and there was no overlay. He was a swimmer. I mean, there 
is--we were both swimming in the same place. There is no way 
that I could get away from him, especially in that atmosphere 
if I wanted to keep up with my sport.
    So I would say that that along with the fact that as soon 
as I opened up my case for sexual harassment, the whole team 
battled against me because you don't tell on the team, you 
don't get the team in trouble, you don't give negative feedback 
about the team because you are drawing attention, and you are 
getting people in trouble. And so, eventually, that is what led 
to me swimming by myself for 2 weeks before my big championship 
meet.
    And I have to tell you, that was probably the hardest thing 
I had to do was see every single one of my teammates, no one 
said a thing. No one said a thing about me swimming by myself, 
and then they assume I had special treatment. So--and that is 
all I have to say.
    Ms. Tsongas. Thank you. Go ahead.
    Ms. Gross. I think this problem begins with the fact that 
we have different standards than men do, and that is really--it 
is needed in a lot of different ways because we are 
physiologically different than men, but because we have lower 
standards physically, the men do initially think that we are 
lesser than them because we can't perform at the same level 
that they do.
    And so that starts in basic training from day one. And then 
in basic training, as we go out to the field and we are doing 
these operations and all these different things, now the women 
are segregated and we are sleeping by ourselves out to the 
side. So the men are participating in the shooting exercises at 
night, but the women are off to the side because they don't 
want us sleeping next to the men at the Academy. So now we are 
further segregated, and that starts the issue there from day 
one that we are at the Academy when they take the women out to 
a different place. That segregation causes the issue.
    And like Midshipman Craine said, it starts at the lowest 
level. When the sophomore cadet teaches the freshman cadet 
about leadership and when the graduates of the Academy go out 
to, you know, their posts across the world from their first 
platoon, and you know, show leadership skills for the first 
time so----
    Ms. Tsongas. Thank you. We don't have much time, but I 
would love to hear from you, too.
    Ms. Kendzior. So I also second Midshipman Craine about how 
the upper class sets the tone. One of my first sexual 
harassment prevention classes as a plebe, we were told a story 
about how a female had said that a star football player had 
raped her. He was separated, accordingly, and that in the end, 
she had actually lied about it, and they finished that story 
with ``don't be that girl.'' That is what they tell us, told my 
class, at least, in that sexual assault prevention class.
    Ms. Tsongas. Thank you all. I appreciate your being here 
today.
    Mr. Coffman. Mr. Russell, you are now recognized for 5 
minutes.
    Mr. Russell. Thank you, Mr. Chairman, and thank each of you 
ladies for testifying today.
    Midshipman Craine, are you familiar with the Sexual Assault 
Prevention and Response [SAPR] program?
    Ms. Craine. I am.
    Mr. Russell. How effective would you say that it is in an 
effort to deal with these issues that you experienced?
    Ms. Craine. So I would say, in terms of training 
midshipmen, I kind have seen it evolve since I was a plebe. It 
has definitely come a long way. I definitely saw how there was 
a bit of cynicism as a plebe when I was going through these 
classes and how now, as I am becoming an upper class, I am 
getting closer to the fleet, the midshipmen are really taking a 
hold of it and making it more of a positive thing.
    People are really participating. Mainly, the guys in the 
class are the ones that participate. In terms of people getting 
the summer training that--so that they can become SHAPE [Sexual 
Harassment and Assault Prevention and Education] 
representatives, like that is also really huge. I am seeing 
really positive people taking those positions, and I am really 
impressed as to how it has changed.
    Mr. Russell. Do you, as a future leader in our Armed 
Forces, do you feel that this equips you with the tools to deal 
with cases like this as you counsel and work with your future 
sailors or marines, depending upon where you are going to be 
branched?
    Ms. Craine. I do think so, to some extent. I definitely 
have, like, some lessons where I am just like it is a little 
off topic or not--doesn't really apply. I do see that if there 
were a way to incorporate actual midshipmen, actual victims, 
actual midshipmen victims into these classes, it would make a 
bigger impact. People would see them, be like that is my peer, 
that is my friend, and people would listen to those classes 
especially more.
    Mr. Russell. Well, and I thank you for that, and, you know, 
I think all of us on the panel agree, or in the committee, that 
even one incident is unacceptable, certainly in our military. 
But as we see the responses and how to deal and improve this 
situation, it is important to get that kind of feedback from 
each of you.
    And now I would like to switch a little bit to the Army. 
Ms. Bullard, do you think that the SHARP training--are you 
familiar with the SHARP training?
    Ms. Bullard. Yes, sir.
    Mr. Russell. Do you think that is a useful tool and its 
content is helpful or not helpful for cadets?
    Ms. Bullard. I believe it is helpful to an extent. Just 
like Midshipman Craine said, it has to come from the cadets. 
Just simply having an upperclassman present a media file about 
sexual assault and sexual harassment isn't good enough anymore. 
It has to come deeper from within. And so relating, and having 
a peer come up to another person saying, ``hey, this is what 
happened to me. You guys have to understand that, you know, 
this happens.''
    And the funny thing is the culture, most cadets believe 
that almost every single report is a lie when actually almost 
90 percent of it is true, and that is just the culture. Most 
cadets don't believe in any woman that reports. I mean, most of 
them. That is--everyone jokes around about that, especially on 
Yik Yak that Ms. Gross explained.
    Mr. Russell. And along the lines to address some of this, 
Ms. Gross, if I may, and I am not sure if it was in place when 
you were a cadet, but there is the Respect Program which 
targets those who demonstrate a lack of maturity or engage in 
acts inconsistent with the Army values. You mentioned the Army 
values, such as sexual behaviors or sexist behaviors. Was the 
Respect Program implemented while you were a cadet there? Do 
you remember that?
    Ms. Gross. Yes, sir, the Respect Program was very active. 
Actually, Cadet Bullard had more experience with that. After 
her harassment complaint, the cadets were subjected to going 
through that program, so I am not completely familiar on that 
topic specifically.
    Mr. Russell. Sure.
    Ms. Gross. I would like to say, though, that the Air Force 
Academy--Cadet Bullard talked about having peers, and the Air 
Force Academy has a program called PEERS [Personal Ethics 
Education Representative] that acts within the companies and 
supports those ideas of respect mentorship.
    Mr. Russell. Do you feel, based upon the three of you 
having, you know, the most recent experience--and Ms. Kendzior, 
I, very much, you know, was moved by your testimony, and thank 
you for that. But do you see these programs getting at the 
criticality of the issue--it is just a matter of massaging the 
implementation, including more feedback from the cadets or the 
midshipmen? Do you feel that the programs are viable, but it is 
a matter of execution?
    Ms. Gross. Absolutely, sir, and it is very important. I 
know I am running out of time here. Cadet Craine's point is 
great, and she said that when she got there, the programs were 
evolving. Two years ago is when she started at the Academy, and 
we were there 2 years ago, and that is when we were leaving. So 
if that evolved now over the last 2 years and it seems like it 
is making good progress, it just----
    Mr. Russell. So I guess--and I really appreciate this 
feedback. It gives us a unique opportunity to query, but it 
appears that the leaders, in trying to address this very real 
concern, because we all believe, and being a former military 
leader with decades of service, one incident is unacceptable. 
But it becomes critically important to know are the programs 
being implemented, do they have value, and so I really thank 
you for those responses.
    And thank you, Mr. Chairman. I yield back.
    Mr. Coffman. Thank you, Mr. Russell. Mr. Gallego, you are 
now recognized for 5 minutes.
    Mr. Gallego. Thank you, Mr. Chair. Thank you, first of all, 
for being so brave in coming forward and informing, educating 
us and the public. This is not ever an easy--easy for anybody 
but especially in the limelight.
    I am concerned, from hearing your individual testimonies, 
that--and please correct me--that there wasn't any education in 
the entry program, whether you are a plebe or a cadet. I am not 
too far removed from college, but I do remember my freshman 
orientation, we were specifically told what consent meant, what 
were the consequences of not having consent, and that there was 
a very defined--and I did not go to an academy, but there was a 
very defined process if you were accused of sexual assault and 
that you would be removed from the school, and also, if 
possible, turned over to the local prosecutor for prosecution.
    When you all were going--entering your school or your 
academies, is there a portion within that first week where 
cadets or plebes, or whatever, are explained to them that this 
is what is considered consent, what is not considered as 
consent, and do, you know, your classmates understand that? 
Let's--we can start with Midshipman Craine.
    Ms. Craine. Most people agree that during that first month, 
when you get to the Academy, it is all quite a blur, but I do 
recall there being a brief about SAPR and SHAPE program, what 
is consent. There was a CMEO [Command Managed Equal Opportunity 
officer] there. But at the same time, like, you are also not 
focused on those things. You are so busy with other tasks at 
hand, but yes, there is that brief, that initial brief.
    Mr. Gallego. And that brief only occurs one time in the 
career of a cadet?
    Ms. Craine. No. No, that brief happens quite often.
    Mr. Gallego. Okay.
    Ms. Craine. It updates the midshipmen with the brief.
    Mr. Gallego. Ms. Bullard.
    Ms. Bullard. I concur with Midshipman Craine. We do learn 
about that during our base training, and it is just about, I 
guess, implementation, just like Mr. Russell said. I mean, it 
is just--cadets, I don't think, are necessarily understanding 
the severe rationality about what is actually occurring. And I 
mean, most cadets just don't think it is real, and that is why 
I think we all mentioned that hearing from your peers and 
hearing, you know, real stories would be a lot of help.
    Ms. Gross. I actually have a different experience, and my 
basic was in 2012--Ms. Bullard's in 2013--but I don't remember 
anything from my basic training about sexual assault training. 
I remember ruck marching for 12 miles. I remember sticking 
people with needles. I remember running. I remember a very 
impactful honor code speech that, you know, spoke with me. I 
remember respect, but I don't actually remember a briefing on 
sexual assault, so obviously, it wasn't impactful enough to 
carry with me through that period.
    Ms. Kendzior. And I pretty much concur with that as well. I 
am the oldest of the bunch. I entered in 2008. If there was a 
briefing, I don't remember, and/or I just wasn't really focused 
on it at the time. I had so many other things to deal with.
    Mr. Gallego. Follow-up question, again, for the panel. Do 
cadets actually understand the consequences of their actions? 
Do they understand that they can be prosecuted under the UCMJ 
[Uniform Code of Military Justice] and that obviously they 
would be kicked out?
    I know that sounds like a very silly question, but you are 
dealing with young men that may not understand because their 
command has not told them that this is not--this is not 
acceptable, or for some reason they somehow think that they are 
not going to be prosecuted. Do you believe that the academies, 
your respective academies you attended, did not properly 
communicate to your fellow cadets and midshipmen the 
consequences of such heinous actions?
    We will start with Midshipman Craine.
    Ms. Craine. They were definitely told the consequences 
briefly, but like anyone, you can be told the consequences but 
not understand what it is to go through the consequences of 
committing an act as that.
    I do think there might need to be a little more focus on 
what would happen to you if you were to do that to someone, but 
yes.
    Mr. Gallego. Ms. Bullard.
    Ms. Bullard. If you don't mind if I am just being blunt.
    Mr. Gallego. Yeah.
    Ms. Bullard. I mean, if it is prosecuted. I mean----
    Mr. Gallego. Right.
    Ms. Bullard. They understand, I guess, the consequences, 
and it is just words, but most times they are not. I mean, if 
it is prosecuted, if it is searched right, I mean, most--I 
mean, you hear all our stories, and it just--it wasn't 
investigated right, and this seems to be a trend.
    So I mean, and most people, I mean, if you look at our 
investigations and some of the stuff that some of the men have 
gotten away with, I mean, it just lets alone, it causes a 
trend, and it shows people that that is okay; and that is not 
right.
    Mr. Gallego. Thank you. Ms. Gross.
    Ms. Gross. I concur with what Ms. Bullard said, and 
specifically for our academic year, where our assaults were 
reported for 2014/2015 report. There was 14 reports made that 
year. Only eight were finished by the end of the report. There 
was only one cadet that was discharged for a sexual assault-
related offense. My cadet, who was founded on assault, was 
discharged administratively for a nonrelated offense. I am not 
sure why. But at that point, you know, maybe they do know what 
the punishment is, but they see that the statistics of them 
actually getting discharged for that are very low.
    Ms. Kendzior. And I will end with, yeah, they did 
communicate the consequences, but obviously the consequences 
aren't upheld.
    Mr. Gallego. Right.
    Ms. Kendzior. So they don't feel threatened by it, in my 
opinion.
    Mr. Gallego. Thank you. Yield back the time.
    Mr. Coffman. Thank you, Mr. Gallego. Ms. McSally, you are 
now recognized for 5 minutes.
    Ms. McSally. Thank you, Mr. Chairman. Thanks, ladies, for 
your courage to speak to us today and speak publicly. I went to 
the Air Force Academy. I was in the 9th class with women there, 
graduated in 1988. These dynamics were going on when I was 
there, and they are still going on now. And I think there is, 
at least, has been a greater emphasis, or desire, by the 
leadership to truly address these issues. But from your 
stories, obviously, there is still a whole lot more and they 
are still falling short.
    I have spent--you talked a little bit about culture. I've 
spent a lot of time thinking about the ``Lord of the Flies'' 
sort of culture that we all experienced at the academies where 
you have--and I never thought I would be saying this on the 
Congressional Record, but I am just going to go for it. But you 
have got 19-year-olds in total control of 18-year-olds, you 
know, 20-year-olds, 21-year-olds.
    I thought about it later on when I was an officer, like we 
would never have airmen first class in total control 24/7 of an 
airman basic in the Air Force. I mean, you don't do that. We 
bring them up. We--they get, you know, focused on their skill, 
and then we teach them how to supervise, and then ultimately, 
after several years, we then allow them to supervise 
individuals, and that is really in all the services.
    And the only difference between, you know, those 20-year-
olds being responsible for directing 18-year-olds around is, 
you know, quite frankly, your SAT scores were higher, right. So 
you know, you are at the Academy, but where this dynamic of 
having 20- and 21-year-olds responsible for 18- and 19-year-
olds, and, you know, this leadership laboratory, I mean, we 
shouldn't be experimenting with human beings.
    So my question is, how much when you--talking about the 
chain of command, the midshipman chain of command, how much of 
what you are dealing with is the upperclassmen making 
decisions, and how much are the real--the officers and the 
senior enlisted that are the ones that are in the Air Force 
that are actually the chain of command, who are ultimately 
responsible for this, right?
    So I just want to be clear to make sure I understand. Do 
you have 20- and 21-year-old midshipmen now deciding what to do 
here? Or, you know, do you have a commanding officer that is an 
actual officer? So just talk to me about the balance of 
decision making in this environment these days, Midshipman 
Craine.
    Ms. Craine. So it, once again, depends on the company. I 
find that I was in a very, like, very open company. The open-
door policy with the company officer, it was great.
    Ms. McSally. You are talking to the actual officer, right?
    Ms. Craine. Yes.
    Ms. McSally. So you are not reporting to like a two degree 
or whatever you guys call them there.
    Ms. Craine. You can. So they have SHAPE representatives in 
the company that have stickers on their door that say you can 
come tell me anything about this case. They are trained to 
assist and give that person the resources, but at the end of 
the day, you have to report either through your company 
officer, through the SAPR office, through an actual figure.
    In my case, I reported to--I didn't report, but I had 
discussed it with my academic advisor, an adult not in my chain 
of command, and she directed me to the right resources.
    Ms. McSally. Okay.
    Ms. Craine. So that is how I----
    Ms. McSally. Just let me be clear. Nobody is reporting to 
another midshipman or cadet who is then deciding not to do 
something with this. I just want to be clear as to who the 
decision makers are here.
    Ms. Craine. No. The midshipmen, at least from what I have 
experienced, they do not make the report. They do not report 
for you. You report. They give you the resources.
    Ms. McSally. Okay.
    Ms. Craine. They do not decide it.
    Ms. McSally. Do any of the rest of you want to pipe in 
based on your experiences?
    Ms. Gross. You mean, on sexual assault harassment 
specifically?
    Ms. McSally. Yes.
    Ms. Gross. Regarding the assault itself, at least at West 
Point, there is no peer reporting, but the peers have a lot of 
control over the conduct investigations that happen for you. So 
honor boards are reported by your peers and investigated 
completely by your peers. And then we also have command--my 
command directed mental health evaluation was initiated by a 
peer, by his report. My room inspections were by peers. My 
reprisal initially was by peers. My misconduct investigation 
was by peers. They do have a lot of control with your life.
    Ms. McSally. So you are basically--the sexual assault 
process and all that is in the hands of the officers and 
others, but when you are dealing with all this other--the other 
dynamics, the culture, the potential retaliation, there is a 
whole lot of peer. I think that is really something that we 
need to be paying a little bit more attention to.
    And Ms. Gross, I want to follow up on this culture thing. 
And I spent a lot of time thinking about this. We show up as 
18-year-olds having a full respect for men and women, and 
somehow there is this inculcation that happens where resentment 
builds. And I do want to follow up with you on your 
perspectives, and I know I am not going to have a lot of time 
here.
    Ms. Gross. I understand.
    Ms. McSally. Any double standards----
    Ms. Gross. Absolutely.
    Ms. McSally. People make fun of me, but I talk about, hey, 
you need to have your hair cut, too, not just the guys having 
their head shaved. Like right away we shouldn't have resentment 
building in the men towards the women. We need more 
integration, not more segregation, because that builds 
resentment.
    And this is all the cultural stuff that feeds into the 
``you are not my real teammate,'' and that is, I think, 
ultimately what we have got to get to the bottom of here at all 
the academies and in the military. Would you guys agree?
    Ms. Gross. Yes, ma'am.
    Ms. Bullard. Yes.
    Ms. McSally. Thanks. I am out of time. Thank you, ladies.
    Mr. Coffman. Ms. Rosen, you are now recognized for 5 
minutes.
    Ms. Rosen. Thank you. And I want to thank you for your 
bravery in coming forward and speaking so candidly about 
something so painful, and so very wrong. You went to the 
service to serve our country with honor and respect, and you 
certainly weren't treated that way, and I am very sorry for 
that.
    What I want to ask is, there is a lot of other women in the 
military, so in your experience at your school, were there 
women leaders? Were there focus groups? Were there support 
groups? What were the women officers able to do for you, and 
how can they help change this culture as we go forward?
    I mean, maybe they are the strongest advocates because they 
have been through this, like Representative McSally, and can 
focus on that.
    Ms. Craine. So from my experience at the Naval Academy, 
there are many, many good women role models. They are officers, 
senior enlisted, even midshipmen. Right now, our brigade 
commander is a woman. And it is fantastic. Like, I do not 
really--I have actually never experienced ever backlash for 
being a woman, never any double standards. There is always 
women breaking the barriers and improving themselves, and it is 
really fantastic.
    Ms. Rosen. How can the older women support you younger 
women, I guess is my question, what can they do or we all do?
    Ms. Craine. Just by being great role models, really just 
interacting with the midshipmen from a day-to-day basis. Like, 
for female midshipmen, seeking out those roles, seeking out 
leadership roles, seeking out roles in which they interact with 
midshipmen on a larger scale. Like, those really make an 
impact. You get more face time with someone who is in a 
position of authority and then you respect them.
    Ms. Rosen. Ms. Bullard.
    Ms. Bullard. I actually had a mentor. She was a SARC and 
she was also a former IG [Inspector General]. And it got to a 
point where she supported us, supported us, and it got to a 
point where we had so much retaliation that she feared for her 
job. And she had us sneaking around, to sneak into her office, 
in order to see us.
    So I would say there is a support, but there is also 
retaliation against them as well.
    Ms. Rosen. So throughout the ranks?
    Ms. Bullard. Yes, ma'am.
    Ms. Rosen. Ms. Gross.
    Ms. Gross. I think it is important to note that that SARC 
was also a USMA grad and was a colonel previously in the Army. 
So she was very confident in her acts with us initially, and 
then was told--told us that she was reprimanded by the chain of 
command for being too close to us in counseling us. And that 
was when she told us to sneak into her office so that upper 
leadership wouldn't see her talking to us. And she later was 
transferred out of the Academy to a different position.
    In addition to that, we have many leaders like this that 
were women, and towards the end of our time at the Academy when 
the retaliation increased and Congress had begun to get 
involved in our cases we started to lose those successively 
where they were told not to speak with us.
    We also, Ariana and I, were very active in trying to start 
a support group at West Point, which is something that happens 
at the Air Force Academy, and West Point does not allow support 
groups. We were very active with this, pushing as high up the 
chain of command as we could, to the SARCs. They told us that 
it wasn't allowed and that we weren't able to do it.
    We ended up forming our own informal support group, through 
the four cadets that I mentioned previously. And as I 
mentioned, all four of us have since left the Academy, either 
being pushed out or self-discharged after mental issues.
    Ms. Kendzior. So from my experience, I didn't really have 
many female officer mentors. I was always surrounded by male 
officers, at least in my companies. But to note, a lot of the 
officers that are company officers went there themselves, so 
they kind of fell into the same culture that we are a part of 
in terms of, you know, trying to fit in with--I call it a frat, 
a big frat you are joining. In my year, 22 percent female. So 
you are joined into this boys club or fraternity and you try to 
fit in and be one of the guys.
    And on another note, the only female officer that I 
actually did sort of know, who was the company officer of a 
company nearby mine, was actually accused of inappropriate 
sexual conduct with a male midshipman.
    Ms. Rosen. It looks like we have a long way to go to bring 
this out of the shadows, because that is where it has been 
hiding, and that is what allows perpetrators to victimize women 
like you and others like you, and we need to bring them out of 
the shadows. They should be here talking about why they did the 
things that they did and letting the world see them on 
television.
    Thank you for your time. I yield back.
    Mr. Coffman. Thank you, Ms. Rosen.
    Mr. Kelly, you are now recognized for 5 minutes.
    Mr. Kelly. Thank you, Mr. Chairman and Ranking Member, for 
having this very important meeting.
    I want to, first of all, tell each of you I am sorry for 
what you had to endure. And I thank you for your bravery in 
being here today. And so I want to make sure that is the first 
and foremost.
    Secondly, I want to talk a little bit. To me, they are 
separate things, and we shouldn't be having a hearing on 
separate things. Harassment and assault are two different 
things. Harassment is a cultural thing. It is bad, really bad. 
But assault, that is criminal, and people need to go to jail. 
And that, more than anything else, as a former district 
attorney, there is nothing I can stand than a criminal act 
which someone gets away with.
    And to put them in the same category--because what happens 
with leaders is they retract to the easy-to-defend position. So 
when you start talking about assaults and you start talking 
about harassment in the same voice, they always want to talk 
about harassment and not about the assault. And, again, 
assaults are a criminal act and nothing less. They are always a 
criminal act.
    Are you all aware of anything that tracks when an 
individual either has a sexual harassment, but more 
specifically, a sexual assault, when the perpetrator, not the 
victim, but when the perpetrator is put into the system, do we 
have an unmasked--I understand innocent until proven guilty, 
but you can mask DUIs [driving under the influence], and when 
someone is not adjudicated, so you have a public-private record 
and all those things. Are you all aware of anything that tracks 
these people who are accused?
    Because if a guy has been accused three times or two times 
or five times, they are a predator. And so we need to know that 
even if it is not drawn to the conclusion that once that 
accusation is made it is not in his permanent 201 file, so to 
speak, but it is in an unmasked. Are any of you four aware of 
anything that privately masks that?
    Yes, ma'am.
    Ms. Gross. So that was one of the main reasons that I was 
pressured to report my first case from unrestricted to--I am 
sorry--restricted to unrestricted, was that when I sat down 
with the SARC's office, they told me that even if my case was 
unfounded, that that was my main concern. There wasn't a lot of 
evidence to my case, it happened previously, that even if I 
report it, then at least it would be in his file so that if it 
happened again, that he would have a pattern. And that was what 
I was told, which what I am hearing from you, sir, is that it 
is not that case, that it is removed from the file later or 
that they can't track that?
    Mr. Kelly. No. Mine is a question. I think that when it is 
reported that it ought to be private, in a private file, that 
every other commander for the rest of that person's career 
sees. If that is the only one that ever happens, then I don't 
think there should be any derogatory towards that soldier, 
sailor, airman, marine. But if there are three of them over a 
5-year period from three different victims, then regardless of 
whether he is found guilty, I think the chain of command has a 
duty to know, because you probably have a predator, and I am 
not aware of anything that does that. Are you all?
    Ms. Gross. There does seem to be a tracking system, at 
least on the reports that were just released and the previous 
reports, if you look at the case synopses, they have a section 
that asks if there had been a previous offense committed or 
reported against the cadet.
    Mr. Kelly. And I know that it is working better now than it 
has in the past. I was at the Air Force Academy last year for a 
graduate of two cadets from my district, and one from somewhere 
else--we are talking about the day of graduation, within the 
last 2 days--was not allowed to graduate within 2 days of 
graduating because of a SARC's complaint. That to me is 
progress. That is effects. That is where you can see that the 
person who perpetrated this on you is not graduating and not 
being that.
    That being said, just very briefly, and I will start with 
you, Ms. Kendzior, if you will say, if you could do any one 
thing to make this better, what would it be?
    Ms. Kendzior. As in had I been there in the past--when I 
was there in the past or now?
    Mr. Kelly. If you can fix anything, if you can do, if you 
are the person in charge of the entire DOD, you are Secretary 
of Defense, and you could do one thing that might impact that, 
then what would that be?
    Ms. Kendzior. I think creating an open environment, a safe 
environment to talk about this, to have a place to go and 
discuss it that you won't be judged and it won't get out to the 
rumor mill. To me, that is why I held it in for so long before 
I came forward. I did not feel like I had a safe place to talk 
about it.
    Mr. Kelly. Ms. Gross.
    Ms. Gross. I really that think we need to institute a 
standard of support groups across the Academy, something that 
the regular Army does but the academies don't uphold. And I had 
the belief while I was there that it is because they didn't 
want us to group together. But if they did group together and 
students were be able to talk about these problems and the 
leadership can then see systemically what is going on, I 
wouldn't feel like I was the only one.
    Mr. Kelly. And very quickly, Ms. Bullard. And I am going to 
skip you, Ms. Craine.
    Ms. Bullard. Interestingly enough, in 2014, almost all 
investigation findings were downgraded to find no sexual basis 
of charge. My point is, is that the leadership is not dinged by 
the assaults, because it is not recorded as sexual.
    Mr. Kelly. And that would go back to my point. I don't 
think that it is being tracked unmasked so that the same 
perpetrator, because I guarantee you--and I am sorry, but, Mr. 
Chairman, if I can indulge Midshipman Craine.
    Ms. Craine. About any changes that I would make? It would 
be to make sure that the squad leaders and the people that--the 
underclass and the people you see the most are trained. Because 
when I went through my case, I didn't really think of the SHAPE 
advisers in my company first. I thought of the people that were 
closest to me that were in charge of me.
    Mr. Kelly. Thank you. Mr. Chairman, I yield back.
    Mr. Coffman. Thank you, Mr. Kelly.
    Mr. Bacon, you are now recognized for 5 minutes.
    Mr. Bacon. Thank you very much.
    I want to thank each of you for sharing what happened in 
your life. And I just want to make it clear, actions described 
were disgraceful and unacceptable. I say that as a five-time 
commander, served nearly 30 years in the Air Force, but also as 
a husband, father of a daughter, granddaughter of three little 
girls. Actually want better. So we owed you better.
    My thought as an institution with the service but also with 
the academies, in any unit, we have got to do three things in 
leadership. One, make the policies clearer, what the standards 
are, and how to respond when an incident does occur. Two, I 
think we owe a way to support victims when these things occur, 
so we have to have a very clear support network there and a 
process. And three, we have got to hold people accountable. And 
so I had to look at all three of those things as a commander.
    So I have a question for you. As a commander, we have a 
little bit of leeway how do we prosecute when things occur. And 
some folks want a bar set a little higher, some set a little 
lower. When I had this situation in my commands and I felt like 
we needed to take more quick action, I decided to court-martial 
folks who the evidence was not as clear. Sometimes it was one 
person's word against another person's word. But I wanted the 
victim to have the opportunity to speak in front of a jury, 
make their case, and also then the person who is accused. And 
our convictions went way up when this happened.
    I would love to have your feedback. Would you have felt 
comfortable to go to a court-martial or is this a process that 
would have worked for you if you had a commander that was a 
little more aggressive and said ``let's put this person in 
front of a jury''?
    Let's start with Ms. Kendzior.
    Ms. Kendzior. I guess I don't understand your question 
fully. Can you please----
    Mr. Bacon. I think the commanders have some leeway who to 
court-martial. Sometimes they want very clear evidence of 
guilt, other times it is a little less clear. I took the tack 
as a commander that I would court-martial people more quickly 
and let the juries decide. What do you think of that principle? 
Should we be more aggressive in court-martialing and let the 
juries decide?
    Ms. Kendzior. I personally believe it should be taken out 
of the hands of the military to do this in general. Rape is not 
and sexual harassment is not exclusive to the military, so why 
should the military be handling this when it is an epidemic 
throughout our country in all colleges? So in my opinion, I 
don't think it should have to go to a court-martial. I think it 
should have to go to civilian court to handle these cases 
appropriately.
    Mr. Bacon. I will just say, though, for the record, in our 
case, we had a high conviction rate through the court-martial. 
We put people in Leavenworth. So accountability does occur. You 
just need commanders that lean forward and be aggressive at it.
    Ms. Gross, do you have a thought on this?
    Ms. Gross. I do, sir. It is actually kind of an opposite 
thought. But I think that right now there is actually too much 
leeway within the institutions. The Academy, at least West 
Point, has many different sanctions that they can impose. As 
you saw with my case, they gave an administrative sanction 
instead of regular court action sanction. They have different 
misconduct hearings, Article 32s. They can do just regular 
judicial punishment at the Academy in the form of walking 
hours. And for that reason, they are able to lower their 
numbers of assaults.
    And so it is very interesting, if you look at the year that 
I left, 2014 and 2015, there was only one case of substantiated 
sexual assault and no substantiated cases of sexual harassment. 
All they were substantiated on was harassment. My case was 
classified as sexual assault. I was only substantiated on 
assault. So maybe that leeway is actually a little too much.
    Mr. Bacon. Okay. Thank you. And Ms. Bullard?
    Ms. Bullard. This is a hard question. I say that because I 
think--I would agree with Ms. Kendzior. I think it needs to go 
outside the military. And the reason why is I think it means--
in Mrs. Gross' case, at any point the head of the command could 
have done something. So that is all I have to say.
    Mr. Bacon. One comment, too, Ms. Bullard. I found in my 
experience, you are absolutely right, 90 percent of allegations 
are true. That has been my experience as a five-time commander. 
And I found out when you start court-martialing people, people 
are pleading guilty. And so I just wanted to substantiate, to 
back up your point.
    Ms. Bullard. Thank you, sir.
    Mr. Bacon. Finally, I just would like to make one point for 
Ms. Kendzior, and I would love to have your feedback.
    The fact that you were calling a DUB, quote, and in plural 
DUBs to the ladies is a sign of a bad cultural problem. Did you 
see any efforts from the higher level command or anywhere in 
the middle to try to correct that?
    Ms. Kendzior. No.
    Mr. Bacon. Okay. Thank you very much. I yield back.
    Mr. Coffman. Thank you, Mr. Bacon.
    Ms. Speier, you are now recognized.
    Ms. Speier. Thank you, Mr. Chairman.
    Let me just tell you how extraordinary you all are and how 
grateful we are that you are here to testify.
    I am troubled by a number of things that happened. With 
you, Ms. Kendzior, you were raped twice at the Academy and then 
labeled as having a borderline personality disorder and taken 
out of the military. Is that correct?
    Ms. Kendzior. Correct. The rapes did not occur at the 
Academy or on the Academy grounds, but it occurred at a team 
house off campus on one occurrence, in a hotel on another 
occurrence, but both of them were by midshipmen.
    Ms. Speier. And both those midshipmen continued through 
their education and became ensigns?
    Ms. Kendzior. Correct. And actually there was an NCIS 
[Naval Criminal Investigative Service] investigation on the 
one, the first rape that happened, and he was still there when 
I reported, and he was allowed to graduate.
    Ms. Speier. Ms. Gross, you indicated that you were 
interrogated after the rape or after----
    Ms. Gross. The first assault, yes. The first rape.
    Ms. Speier. The first rape. And you were interrogated for 
13 hours?
    Ms. Gross. Yes, ma'am, that is correct.
    Ms. Speier. And then what happened?
    Ms. Gross. During that time, I think CID--CID had gotten 
better by my second assault, I will say that. There had been 
improvement. I am unique in the fact that I did not have a 
special victims' attorney for the first, and then I did for the 
second, so I was able to see the change between the two. Having 
that special victims' attorney played an integral role to 
making sure that didn't happen the second time. He was very 
strict on making sure that I wasn't overexerted.
    But the first time I had 13-hour interviews, I think twice, 
before my commander came in after 11:30 at night and said that 
I needed to go, because I had class in the morning, and I had 
missed class all day.
    Ms. Speier. So you had two 13-hour interrogations?
    Ms. Gross. Yes, ma'am.
    Ms. Speier. And we wonder why victims don't want to report.
    If I remember correctly, Ms. Gross, you had, in the second 
rape or assault, you had bruises on your neck and in your upper 
torso area. Is that correct?
    Ms. Gross. Yes, ma'am.
    Ms. Speier. And there were photographs taken, correct?
    Ms. Gross. Yes, ma'am.
    Ms. Speier. And then were these photographs lost?
    Ms. Gross. I was told that there were certain photographs 
that were not documented properly or lost within the 
investigation, yes, ma'am, and also that they had refused to 
take my clothing and the blood alcohol level indication that 
was requested.
    Ms. Speier. So he was drunk.
    Ms. Gross. Yes, ma'am.
    Ms. Speier. And he sexually assaulted you. They were made 
aware of this, and then they chose not to get his blood alcohol 
or to take your clothing as evidence.
    Ms. Gross. Yes, ma'am, at the directive of the trial 
counsel at West Point, a captain.
    Ms. Speier. And what was the rationale for not doing that?
    Ms. Gross. I am not sure, ma'am. The military police 
officers told me that they received the call. As Ariana Bullard 
was with me and told them to take a blood alcohol level, 
because he was obviously drunk, and they said that the trial 
counsel captain told them not to take it, and I never found out 
why. My special victims' attorney said that he wasn't sure that 
the Academy had the right intentions with the second case and 
felt that because I had an unfounded case that I was no longer 
credible, and so he felt that that was going to be used against 
me.
    Ms. Speier. Now, both you and Ms. Bullard, even though you 
have gone through this injustice, frankly, you want to return 
to the Academy and complete your education there. Can you 
explain to us why?
    Ms. Bullard. Ma'am, I think, first off, I think it should 
be noted that I didn't want to leave in the first place. I 
wanted to stay if there was a change. And the fact that I 
received silence from General Caslen showed me just that there 
wasn't anything to be done at that time. And so immediately I 
had to go.
    And, yeah, I would say that I would love to go back. And I 
think that Stephanie and I are probably the best people to help 
create and help support this cause.
    Ms. Gross. I think that Ariana and I can agree, and we have 
talked extensively about this decision, that we admire General 
Caslen greatly. We both admired him as a cadet. We saw great 
leadership from him during our time there and in his briefings 
and believe that his intentions are true and the Academy's 
intentions are true. They want to fix this problem. We do 
recognize that he made mistakes as well, and so did the 
institutions, just like we all do.
    And because of this, I feel like I can't come to Congress 
and talk to you and tell you these problems and not take any 
action to fix them if I was truly passionate about the issue, 
that I can't sit here and say that these things are wrong 
without trying to fix them myself or trying to do something 
that would do that where I can come back as a leader and make a 
change.
    Ms. Speier. Thank you. I yield back.
    Mr. Coffman. Dr. Wenstrup, you are now recognized for 5 
minutes.
    Dr. Wenstrup. Thank you, Mr. Chairman.
    I want to thank all of you for your leadership and being 
willing to come here and educate us on problems that clearly 
exist and help us try and be part of the solution as best that 
we can. And I admire your bravery through all this.
    Truthfully, the questions I would have asked have already 
been asked, so I won't put you through it again. But thank you 
for stepping forward and being the true leaders that you are 
and brave souls. I appreciate it. Thank you.
    Mr. Coffman. Mrs. Davis, you are now recognized for 5 
minutes.
    Mrs. Davis. Thank you, Mr. Chairman. And, Mr. Chairman, I 
certainly did have a lot of questions.
    Thank you so much to all of you for being here. I think if 
there is anything I take from this is that I am glad that you 
can point to a few areas in which there has been some change, 
but clearly not enough. And I think that we all have to be very 
cognizant of that.
    I am really more inclined to want to just go ahead and move 
on with the next panel, because I hope that you all can stay at 
least for a few minutes, because I am certainly interested in 
some of the reaction.
    But there are a few things that I was glad to hear. The 
special victims' counsel, that I think, generally, I sense that 
that is a good thing. And we know that that is also a model 
that has been picked up at the universities, in some 
universities. We are pushing for more. But I am glad to hear 
that that is positive. I would be very interested in knowing 
how we can progress it even more to speed up any of the best 
parts and get rid of some of the problems that might have 
occurred.
    The unit climate is also very important, and we talk about 
retaliation. I think I would love to know more about how we 
have a zero-retaliation environment. And my sense has always 
been that it is on whoever is in leadership within that that 
sets that tone, and we have got to change that.
    The fact that you could be in a sports environment, Ms. 
Bullard, and not have anybody getting your back, you know, 
that, in addition to the service mentality, and that, you know, 
it is a family, the fact that you would not have your co-sports 
men and women helping you out, that they weren't sensitive 
enough to that, tells me that leadership in that environment 
was such that that is where the changes have to be made.
    So then the question is, how do we make that happen? Is it 
the training that is going on, not among the people involved, 
but the leadership? So how should that change? So I will let 
you answer that.
    And also the whole idea that anybody who has been leading a 
group of people, recruits and cadets, and had a case under 
their leadership that was not handled well, the fact that they 
would advance in leadership has always been something that I 
just don't understand. We have got to get at that. You know, 
people should have a fair hearing, but we also don't want 
people to advance, number one, who have been a perpetrator, 
but, number two, who have been in leadership when that kind of 
crime has taken place.
    So I think that is sort of where I would hope that perhaps 
we can discuss a little bit more in the next panel. But, 
please, I have a minute and a half, could you respond?
    Ms. Craine. In regards to the command climate, I have never 
been called a DUB. I have never experienced anything like that 
at my time at the Academy. And when I took hold of my case and 
had confidence and didn't fear anything about it, I received 
the most support from the midshipmen at the brigade.
    Ms. Bullard. I would have to agree with you that it comes 
from leadership. And in my resignation to General Caslen, I 
told him that there needed to be new leadership and a new 
culture and that was the problem. The head coach is a civilian, 
and he doesn't necessarily--he understands the gist but doesn't 
necessarily understand the military very much. And bringing 
that into an NCAA [National Collegiate Athletic Association] 
sport is hard. I mean, how do you establish a military 
environment but also have an NCAA sport?
    So I think it is a double-edged sword. And as Ms. Kendzior 
said, you know, it is kind of like the guys are better than the 
girls. And that is the thought on the team, that they are 
better than the girls and they are two separate teams, and I 
don't understand how that is for an Army team.
    Ms. Gross. I actually have an improvement for my piece, 
that with my special victims' attorney, I think I might have 
been the only one, maybe Cadet Craine here, who brings very 
valuable to the current system. It may have changed since I 
have been there, but they had very limited power because they 
were subjected--at the time, my attorney was only 2 months new 
to the Academy, and he was subjected to my chain of command 
leadership. And so he was telling me that he was feeling very 
restricted because he can only do so much because he had to 
report that to his own leadership who was being investigated 
for my case. So that may be something to look into. I am not 
sure if that has changed.
    Ms. Kendzior. And I would just go back to what I said 
earlier, that I think it is important to train the leadership, 
the faculty, the coaches. I never received any conversation 
from my coaches reaching out to me about what had happened. So 
that would be a good start, in my opinion.
    Mrs. Davis. Thank you all for your testimony today. It is 
very important. Thank you.
    Mr. Coffman. Ms. Speier.
    Ms. Speier. Just one question. Simply, were you retaliated 
against?
    Midshipman Craine.
    Ms. Craine. No.
    Ms. Bullard. Yes.
    Ms. Gross. Yes.
    Ms. Kendzior. Yes.
    Mr. Coffman. Thank you, Ms. Speier.
    I want to thank the panel, the members of the panel, for 
having the courage to step forward today. I think for some of 
you it is a question of bringing justice to your particular 
case. And I think by virtue of you being here, you will help 
countless others. And I think everybody in this committee--
subcommittee--is committed to making sure that we do our utmost 
to make sure that the climate and the culture of our service 
academies changes to where we don't experience a panel like 
this in the future.
    So, again, I want to thank you so much for your testimony 
today. And you are now dismissed.
    We are going to recess until after the vote to hear the 
panelists, the superintendents for the various service 
academies.
    [Recess.]
    Mr. Coffman. This hearing is now called back to order.
    I wish to now welcome our second panel. We would like to 
respectfully remind the second panel to summarize to the 
greatest extent possible the high points of your written 
testimony in 5 minutes or less. Your written comments and 
statements will be made part of the hearing record.
    Our second panelists consists of Dr. Elizabeth P. Van 
Winkle, Performing the Duties of Assistant Secretary of Defense 
for Readiness; Lieutenant General Robert L. Caslen, Jr., 
Superintendent, United States Military Academy; Vice Admiral 
Walter E, Carter, Jr., Superintendent, United States Naval 
Academy; Lieutenant General Michelle D. Johnson, 
Superintendent, United States Air Force Academy.
    With that, Dr. Van Winkle, you are now recognized for 5 
minutes.

STATEMENT OF DR. ELIZABETH P. VAN WINKLE, PERFORMING THE DUTIES 
        OF ASSISTANT SECRETARY OF DEFENSE FOR READINESS

    Dr. Van Winkle. Thank you. Chairman Coffman, Ranking Member 
Speier, and subcommittee members, thank you for having me here 
today to discuss the results of the DOD Annual Report on Sexual 
Harassment and Violence at the Military Service Academies.
    The Department is committed to promoting an environment 
where all service members, cadets, and midshipmen are treated 
with dignity and respect. Sexual assault and sexual harassment 
have no place in our Armed Forces and military academies. These 
problematic behaviors affect our people's well-being and 
undermine the overall readiness of our military. Just one 
instance of sexual assault, harassment, or sexualized 
misconduct can impact the trust between military members, 
degrade unit cohesion, and takes focus off of the mission at 
hand.
    The strength of our force relies on the resiliency and 
discipline of our military members. These behaviors and 
tolerance of these behaviors weakens our force. Preventing 
criminal behavior and misconduct, providing care for service 
members, and holding offenders appropriately accountable 
continues to be a top priority. We also understand that each 
service and academy have unique environments, and we work to 
ensure they have the flexibility to implement change based on 
their composition and challenges.
    We are a learning institution, and we are continually 
striving to do better. In the force at large, we have seen 
advancement over the past several years at our key indicators 
of progress. Our report released yesterday indicates that 
sexual assault rates in the Active Duty are at their lowest and 
rates of reporting are at their highest.
    However, one of the things we have learned since creating 
the Sexual Assault Prevent and Response program in 2005 is that 
context and environment matters. Our approach must be tailored 
to take into account unique combinations of mission, people, 
and environments. There is no one-size-fits-all solution to the 
problem of sexual assault.
    Unfortunately, the rates of unwanted sexual contact 
increased at all three academies during this academic program 
year, returning to levels commensurate with what we observed in 
2010 and 2012. In addition, while the trend line in the Active 
Duty Force shows increases in the number of members making the 
difficult decision to report a sexual assault, rates of 
reporting at the academies have not followed the same trend.
    Finally, the experience of sexual harassment and 
retaliation is far too common at the academies.
    Going forward, we will continue to work with the academies 
to reinvigorate their approach to prevention. This means 
addressing how contributing factors, such as alcohol misuse, 
sexual harassment, hazing, bullying, and other disruptive 
behaviors, impact their unique environments.
    However, the absence of these kinds of negative behaviors 
is only part of the solution. There also needs to be the 
presence of strong leadership traits among the students in this 
space. Each student must be empowered to be role models in how 
they behave, how they treat each other, and how they expect 
other cadets and midshipmen to be treated. We owe them guidance 
on what right looks like.
    But this is not something that can be immediately achieved 
with a policy. It can only be achieved through a unified effort 
to help our cadets and midshipmen understand the duty they have 
to each other in all aspects of their behavior and at all 
times. The academies are already working to move the needle, 
and they can each talk to some of the initiatives they have 
begun to empower students to take on this charge.
    The environment at the academies is unique. As such, it is 
taking us longer to fine-tune our approach, and our efforts to 
improve prevention and reporting have not made the gains that 
we would all like to see.
    This is not for a lack of effort and attention. Our surveys 
indicate that the majority of cadets and midshipmen trust the 
academies to protect privacy, ensure safety, and treat all with 
dignity and respect. We are confident that we can do more to 
prevent sexual assault and sexual harassment at the academies 
through an approach that considers the full spectrum of 
readiness-impacting behaviors.
    In closing, we will not stop until we get this right. We 
appreciate your concern and support as we work to protect the 
people who volunteer to keep our Nation safe.
    Thank you for the opportunity to come and speak with you 
today. I look forward to your questions.
    [The prepared statement of Dr. Van Winkle can be found in 
the Appendix on page 65.]
    Mr. Coffman. Thank you, Dr. Van Winkle.
    Lieutenant General Caslen, you are now recognized for your 
opening statement.

 STATEMENT OF LTG ROBERT L. CASLEN, JR., USA, SUPERINTENDENT, 
                 UNITED STATES MILITARY ACADEMY

    General Caslen. Thank you very much, Chairman Coffman, 
Ranking Member Speier, and distinguished members of the 
subcommittee. It is an honor to be here today representing the 
United States Military Academy community.
    I know that today we are here to address the recent sexual 
assault and gender relations survey results and to provide the 
committee with details about the work we continue to do to 
improve the support we provide to victims of sexual violence, 
but also the very crucial aspect of creating a climate that 
does not allow these events to happen in the first place.
    As a start point, I want to say that the experiences that 
Ms. Bullard and Ms. Gross shared with you are things that we 
never want to happen to anyone at West Point. I admire both Ms. 
Bullard and Ms. Gross for their moral courage and their candor 
to come forward today to be able to talk about these 
situations.
    I share Ms. Gross' concern about the open-door policy, and 
as much as she agonized not talking to me, I shared the same 
feelings that I was unable to talk to her because of pending 
action that I had to preside over, to include a DOD IG 
investigation for reprisal.
    But we learned a lot from both of them and from their 
experience. We learned about special victim counsel and the 
work that a special victim counsel does in these 
investigations. We learned a lot about interview techniques. We 
learned a lot about advocacy and advocacy methods that build 
trust as compared to what you heard from Ms. Gross and Ms. 
Bullard.
    We also learned a lot about the cycle that a victim feels 
as they go through isolation and ostracism and then misconduct 
and then further isolation until the point where they finally 
bottom out and are ejected. We learned about the commander's 
responsibility to be able to identify where that cycle occurs 
and then to prevent that ejection from happening.
    Our strategy to build and maintain a solid response to 
sexual harassment and sexual assault addresses prevention, 
victim advocacy, investigation, assessment, and accountability. 
We believe we have made great strides in advocacy, 
investigation, accountability. This past year, our reporting 
has nearly doubled, a very positive sign that our work to 
improve the climate is beginning to take root.
    However, we must focus more on primary prevention, efforts 
that stop the crime from happening in the first place. As part 
of that effort, we hired an external organization to assess our 
programs and offer recommendations in how we can improve.
    We acknowledge that the only cause of sexual assault is the 
criminal committing a crime, and we accept that we must create 
a command climate where everybody is treated with dignity and 
respect, everybody feels that they are a valued member of the 
team, and everybody feels secure both physically and 
emotionally.
    Prevention education must integrate purposeful discussions 
about building and maintaining healthy relations and tough 
conversations about consent and sexual encounters. These issues 
are part of what makes collegiate environments so challenging 
in terms of sexual violence prevention. However, education and 
skill building, which are two keys to successful prevention 
programs, are also part of the college experience, and we 
therefore continually explore ways to modify our programs to 
respond to these factors.
    For example, over the past few weeks our SHARP and our 
Cadets Against Sexual Harassment and Assault hosted a sexual 
assault awareness and prevention month of activities, which 
included Mr. Tony Porter, a screening of the movie ``Audrey & 
Daisy,'' Denim Day, Take Back the Night, Survivor Speak Out, 
Walk a Mile, and other events and other work with our local 
rape crisis center. These events were well attended by cadets 
and community members and raised awareness about sexual assault 
and reinforced how prevention is everyone's responsibility.
    As a member of the NCAA Board of Governors, I was asked to 
co-chair the Commission to Combat Campus Sexual Violence 
because of the military academies' recognized programs and 
initiatives and experience in dealing with these issues. There 
is much work to be done to shift the tide of sexual violence on 
college campuses, and it is an honor to be a part of the work 
at the national level, both through the NCAA and at West Point.
    Finally, we still have a lot of work to do to eliminate 
sexual assault and sexual harassment. We have not stopped 
working on this issue, and we won't. I hope that as I have the 
opportunity to answer your questions today it will become clear 
that our mission at West Point is to develop leaders of 
character who are committed to the values of duty and honor and 
country and are prepared for a career of professional 
excellence in service to the Nation as an officer in the United 
States Army. Thank you.
    [The prepared statement of General Caslen can be found in 
the Appendix on page 72.]
    Mr. Coffman. Thank you, Lieutenant General Caslen.
    Vice Admiral Carter, you are now recognized for your 
opening statement.

STATEMENT OF VADM WALTER E. CARTER, JR., SUPERINTENDENT, UNITED 
                      STATES NAVAL ACADEMY

    Admiral Carter. Chairman Coffman, Ranking Member Speier, 
and distinguished members of this committee, thank you for 
inviting me to discuss the Naval Academy's sexual assault 
prevention and response efforts. At the Academy, we have a 
responsibility to ensure that every single member of the 
Brigade of Midshipmen is afforded an opportunity to develop 
professionally in an environment which fosters dignity and 
respect.
    Additionally, we produce one-third of our service's 
unrestricted line officers every year. If we get it right, and 
we have every intention to do this every year, we can be the 
custodians of the core values of the Navy. We can set the 
standard for professionalism, for honor, for integrity. We can 
graduate and commission young junior officers that will 
inevitably influence the overall culture of the Navy and the 
Marine Corps.
    Despite dedicated efforts by the Naval Academy leadership 
and the Brigade of Midshipmen, we continue to experience 
incidents of unwanted sexual contact within our ranks. While 
the recently released Annual Report on Sexual Harassment and 
Violence at the Military Service Academies shows the Naval 
Academy's prevalence of unwanted sexual contact in 2016 was 
below of that 2010 and 2012, there was a significant increase 
in prevalence from the progress reported in 2014. We can and 
must do better.
    We have an extensive sexual assault prevention program at 
the Naval Academy. Each midshipman actively participates in 
over 30 hours of education and training during their 4 years at 
the Academy, starting on the first day of Plebe Summer and 
culminating with the completion of a character capstone event 
during their senior year.
    The heart of our prevention effort is the Sexual Harassment 
and Assault Prevention Education, or SHAPE, S-H-A-P-E, program, 
a peer-led small group mentorship program. Our SHAPE program 
has evolved over the last several years, and based on evidence-
based research in the field, data from these annual reports, 
student and facilitator feedback, and best practices of other 
institutions. Additionally, we have incorporated sexual 
harassment and sexual assault prevention into our formal 
education curricula.
    We recently evaluated our prevention program against the 
recommendations set forth by the Centers for Disease Control's 
guidelines and found that our efforts incorporate all major 
facets of the CDC's prevention education model with the 
exception of teaching healthy safe dating and intimate relation 
skills.
    Moving forward, we will being placing further emphasis in 
the following three areas: responsible use of alcohol, healthy 
behaviors in relationships, and understanding consent.
    With respect to our sexual assault response program, we 
continue to make steady positive progress. Sexual assault 
continues to be one of the most underreported crimes in our 
Nation. That said, reports of sexual assaults at the Naval 
Academy have more than doubled over the past 4 years.
    Furthermore, just this past year we had 11 previously 
restricted reports converted to unrestricted reports, providing 
not only an opportunity to provide care and support for our 
survivors, but also the chance to hold individuals accountable 
for their actions. I believe this continued positive trend 
reflects increased trust in our system.
    Despite our committed efforts and a very robust program, 
the recent report shows that we still have much work to do to 
further effect and sustain positive change. We are not where I 
want us to be, nor where the Navy needs us to be. There is no 
finish line in our sexual assault prevention and response 
endeavors, but I have full faith and confidence that my team 
will rise to the challenge.
    Thank you for your time today, and I look forward to your 
questions.
    [The prepared statement of Admiral Carter can be found in 
the Appendix on page 85.]
    Mr. Coffman. Thank you, Vice Admiral Carter.
    Lieutenant General Johnson, you are now recognized for your 
opening statement.

STATEMENT OF LT GEN MICHELLE D. JOHNSON, SUPERINTENDENT, UNITED 
                    STATES AIR FORCE ACADEMY

    General Johnson. Thank you, Chairman Coffman and Ranking 
Member Speier and other distinguished members of the committee. 
Thank you for the opportunity to appear before you today on 
behalf of the future leaders of our Air Force, the cadets of 
the United States Air Force Academy, as well as the faculty and 
staff that support our mission to educate, train, and inspire 
these young men and women to become leaders of character in 
service to our Nation.
    Thank you also for allowing us to attend the first panel 
today in the hearing. And thank you for your steadfast 
attention to the critically important issues of sexual 
harassment and assault, issues that are corrosive to our 
ability to successfully carry out our mission and, by 
extension, are impediments to military readiness.
    I would like to briefly discuss some of our work in sexual 
assault prevention and our efforts in positive culture change 
at the Air Force Academy.
    As has been said before today, one sexual assault is too 
many. We expect more of ourselves, and rightfully so, because 
more is expected of our graduates when they leave our campus 
and operate in increasingly complex, interconnected, and 
unpredictable battle spaces. We must hold ourselves to a higher 
standard. Our bottom line is that we cannot tolerate any 
incidents of sexual harassment or sexual assault.
    The results of the 2016 Service Academy Gender Relations 
Survey and Sexual Harassment and Violence reports indicate that 
as an academy we are not yet where we want to be. We want 
reporting to go up, prevalence to go down, and ultimately for 
these incidents to go to zero. We have work to do, but based on 
the initiatives we have begun, we believe we are moving in the 
right direction.
    The 2016 Service Academy Gender Relations Survey estimates 
indicate the number of USAFA [United States Air Force Academy] 
cadets experiencing unwanted sexual contact in the past year 
actually increased from 126 in 2014 to 150 in 2016. Both of 
these estimates are less than the 162 cadets estimated for 
2012.
    We are working toward greater clarity in these numbers to 
understand them better and to provide additional context, and 
so we also utilize the Military Service Academy Defense Equal 
Opportunity Climate Survey to help us better understand cadets' 
attitudes about reporting, prevention, and leadership's 
approach to addressing these crimes.
    We have seen some positive trends in these areas. The 2016 
Military Service Academy Equal Opportunity Climate Survey 
showed that significantly more cadets are willing to seek help 
from their chain of command compared to 2014 and showed an 
increase in trust at all levels of leadership at the Academy, 
an average increase of 3 percent across enlisted and officer 
leadership, academic faculty and staff, and the athletic 
department.
    The Air Force Academy's sexual assault prevention strategy 
is dedicated to fostering a climate of dignity and respect with 
a holistic approach. To keep pace with swift changes in culture 
and the development of new dimensions of victimization in 
anonymous environments and on social media, our current and 
future initiatives reflect a paradigm shift in training, 
focusing more on peer-to-peer approaches, grassroots efforts, 
and implementing evidence-based programs that use meaningful 
metrics to measure impact over time. And this focus is 
transitioning from quantity to quality and from response to 
prevention.
    Among our prevention initiatives is the Cadet Healthy 
Personal Skills program for fourth class or freshmen cadets, an 
evidence-based program that focuses on prevention of multiple 
problem behaviors, including substance abuse, risky sexual 
behavior, and aggressive behavior.
    In addition, Green Dot Bystander Intervention training has 
been implemented with our permanent party as part of the first 
phase of a 5-year Air Force-wide violence prevention strategy. 
Cadets will receive this highly interactive, discussion-based, 
and realistic training starting this summer.
    And we have made significant strides in the athletic 
department, where each of our intercollegiate athletic teams 
participate in small group healthy relationships training, a 
judgment-free environment in which everyone is allowed to speak 
freely and the focus is positive.
    Victim care is a fundamental priority for our SAPR program, 
and we have built a robust safety net for victims to ensure 
their emotional and physical well-being regardless of when or 
where sexual misconduct took place, even if it was before they 
came to the Air Force Academy. Thirty-eight percent of reports 
in 2016 were of incidents that occurred prior to military 
service.
    Our approach to victim care includes medical care, 
counselors, chaplains, peer support, law enforcement 
investigation, and a special victims' counsel. When a victim 
chooses to ask for help, a victims' advocate is there to offer 
support and ensure all resources are available for their 
recovery.
    We want all victims to get the help and care that they need 
so that they are able to continue on the selfless, ambitious 
path that brought them to our Academy and reach their fullest 
potential as leaders of character in our Air Force.
    Thank you for your time, and I look forward to answering 
your questions.
    [The prepared statement of General Johnson can be found in 
the Appendix on page 96.]
    Mr. Coffman. Thank you, Lieutenant General Johnson.
    Dr. Van Winkle, I understand that the overall Department of 
Defense Sexual Assault Prevention and Response report was 
released yesterday. How do the results of the DOD-wide survey 
compare to the service academy report?
    Dr. Van Winkle. Thank you for the question.
    As mentioned in my opening statement, within the Active 
Duty we are seeing indications of progress. We saw the 
prevalence rates--so that is the occurrences of the crime--the 
estimates of prevalence decreased in the Active Duty 
significantly between 2014 and 2016. So we are seeing a trend 
line down, 2014, 2016, and also 2012 is a trend line down 
across all of those years.
    In addition, we have proportionately more people reporting 
than ever before within the Active Duty.
    Mr. Coffman. Are you speaking to the----
    Dr. Van Winkle. The Active Duty.
    Mr. Coffman [continuing]. DOD-wide?
    Dr. Van Winkle. Yes, sir.
    Mr. Coffman. And DOD-wide includes the academies?
    Dr. Van Winkle. No. The Active Duty report that was 
released yesterday is only the Active Duty.
    Mr. Coffman. Okay.
    Dr. Van Winkle. So the reports we saw, about 32 percent of 
Active Duty members are reporting when they are experiencing a 
sexual assault, that is what we estimate.
    As opposed to those trends that we are seeing in the Active 
Duty, in the academies we did not see the same progress, where 
we saw sexual assault or unwanted sexual contact rates go up 
between 2014 and 2016. We didn't see the same progress in 
reporting either. So it is a different picture.
    Mr. Coffman. Do you have a breakdown, though, in that 
survey in the same, I guess, age cohort or the same--so if you 
compare on the Active Duty side those between, say, 18 and 22 
years old with the academies, is there a breakdown in the 
report that reflects the difference in age, apples to apples in 
terms of ages?
    Dr. Van Winkle. We can provide that breakdown. I can take 
that for the record.
    [The information referred to can be found in the Appendix 
on page 119.]
    Dr. Van Winkle. To your point, the 18- to 24-year-old age 
group tends to be the highest risk group for these behaviors, 
and we can provide you that.
    Mr. Coffman. Thank you very much.
    We have just heard the compelling stories of survivors of 
sexual assault. Many mentioned that they were hesitant to 
report their assailants and that when they did they experienced 
retaliation. Could each of you discuss the programs in place to 
address these problems?
    Lieutenant General Caslen, start with you, please.
    General Caslen. Yes. Thank you very much. Let me first talk 
about--address the reprisal and retaliation, because I think 
that is a significant issue.
    Based on the report that we just had, our reprisal facts 
were that 13 percent of those that had unwanted sexual contact 
reported professional reprisal, which means it was unfavorable 
personnel action or some type of personnel action was 
threatened to be withheld. Here is the key part: 47 percent 
felt ostracism and isolation.
    So we are really trying to understand the depth of the 
issue. It is one way to understand it from the professional 
standpoint, but it is also important that we understand the 
isolation and the ostracism that occurs, because whether you 
see it or somebody else sees it, the victim and the survivor 
will see it and they will feel it. And then how do you protect 
them, how do you create a command climate that does not allow 
that to happen?
    Social media and the anonymity of social media also allows 
reprisal to occur. We talk to our cadets all the time about 
having a private life that you would display on social media 
that is consistent with the values that you would have in 
public. If you have a private life that is not consistent with 
your public life, that is not the type of values that America 
expects of leaders who will lead their sons and daughters. So 
that comes into effect as well.
    We put into place a policy that really denies and does not 
allow reprisal to occur, and we are taking action against that 
as well. And then we continue to support the Army regulation.
    Mr. Coffman. I beginning to run out of time.
    Vice Admiral Carter, could you respond, please?
    Admiral Carter. Yes, sir.
    First of all, I want to respond to the members that were up 
here earlier. For former Midshipman Kendzior, who was at the 
Naval Academy many, many years ago, the resources that are at 
the Naval Academy and the situation that we have at the Naval 
Academy is, unfortunately, in a much, much different place and 
a more positive place. And as you heard from Midshipman Craine, 
she did not talk about reprisal and she felt compelled and 
comfortable reporting.
    One of the things that we have done is we have moved, first 
of all, where you can report to our Sexual Assault Response 
Coordinators so that it is not collocated where they live. It 
is slightly outside of their living spaces but close enough 
that they feel comfortable going there.
    The second thing I would tell you is our Midshipmen 
Development Center is a mental health facility that midshipmen 
feel very comfortable, with no stigma going to. We have sexual 
assault trauma counselors there, so they feel very comfortable 
going to them.
    We also talk to the midshipmen about the responsible use of 
using social media and how they need to look out and protect 
each other. And we have seen good behavior actually occur on, 
you know, social sites like Yik Yak, which are now starting to 
close down.
    So although this is still a challenge with reprisals, we 
feel that is--we have seen with our unrestricted reports going 
up, 11 have transitioned this year, as I mentioned. There are 
good indicators. And even in our survey, midshipmen showed a 
propensity to want to report more than they have in the past.
    Mr. Coffman. Okay. Lieutenant General Johnson, briefly, 
please, I am over my own time limit, please.
    General Johnson. Sir, just very briefly. We try not, 
likewise, try not to let the anonymous environment, let the 
negative stand and talk about people of character, to shut it 
down online. They have gone from Yik Yak to Yodel, so there is 
always another site for them to find, but we don't let that 
stand.
    We do check on them every month and case management groups 
for our victims to cross-check across entities at the Academy 
to make sure there is not an action of reprisal taking place.
    The special victims' counsels help very, very much, and we 
think as a result, we are benefiting from more unrestricted 
reports. If people are willing to make an unrestricted report, 
that means they have confidence that they won't be retaliated 
against. We hope that is the case. And over the last 3 years 
our restricted and unrestricted reports have been within five, 
so we think we are making progress in confidence.
    Thank you, sir.
    Mr. Coffman. Thank you.
    Ms. Speier.
    Ms. Speier. Thank you, Mr. Chairman.
    Thank you to all of you for your leadership. I know that 
you want to do the right thing. I truly believe that. The 
numbers, as Dr. Van Winkle has pointed out, just don't support 
the kind of growth we would like to see.
    General Johnson, I truly enjoyed being at the Academy with 
you last month. And I see Dr. Dickman is here, who I observed 
for close to an hour as she presented before all of the coaches 
from around the country, and it was a very compelling 
presentation.
    Let me start by asking this, just yes or no. Do you believe 
that 90 percent of the reports of sexual assault are true?
    Dr. Van Winkle.
    Dr. Van Winkle. According to the data, in terms of what 
falls under an unfounded case, that would align, where we 
typically see about 2 percent in the Active Duty being 
unfounded, meaning that there was evidence that didn't support 
that the crime occurred.
    Ms. Speier. General Caslen.
    General Caslen. I think it is true that the victim had 
experienced something, and it was significant and it was 
emotional to that person, and it created a crisis of 
confidence, a crisis of security, emotional and physical 
security.
    When you do the investigation and to determine whether 
there is sufficient evidence to continue for further 
prosecution, the facts, at least for us, is just under 50 
percent will be founded, that there was enough evidence to 
continue.
    Ms. Speier. That doesn't mean it didn't happen. It just 
means there wasn't sufficient evidence.
    General Caslen. Yes, ma'am.
    Ms. Speier. So I think that is really important.
    Okay, Admiral Carter?
    Admiral Carter. Yes.
    General Johnson. Yes.
    Ms. Speier. All right. So one of the statements that was 
made earlier by the first group of witnesses was a 
recommendation by someone who was counseling them that, 
basically, don't be that girl. And it was about the reference 
to a football player who was administratively removed, and it 
was found out that the victim was not telling the truth.
    So that message has to change. I mean, I think part of what 
we need to train everyone is that most of those who file 
reports are telling the truth. So I just wanted to make that 
point.
    Admiral Carter mentioned that sexual assault survivors at 
the Naval Academy now can take sabbaticals, which I think is 
really healthy. Do each of you offer that opportunity?
    General Caslen.
    General Caslen. Yes, we do. We do it under the consultation 
of all the mental health support and the chain of command.
    Ms. Speier. General Johnson.
    General Johnson. Yes, ma'am. Administrative turnbacks, and 
they may go for one or two semesters to make sure that they are 
ready to come back upon consultation with the experts, as 
General Caslen said.
    Ms. Speier. So it is not necessarily just at their request, 
it has to be in consultation with medical personnel? We may 
want to look at that.
    Ms. Gross mentioned that she was interrogated for 13 hours 
one day and then 13 hours another day.
    General Caslen, is that still going on at the Military 
Academy?
    General Caslen. No. Ma'am, if you remember from my opening 
statement, we learned a lot from what Ms. Gross and Ms. Bullard 
had experienced. And one of the things we did learn was about 
the interrogation and interrogation techniques. And God forbid 
if we ever do something like that again.
    Ms. Speier. So this report, Dr. Van Winkle made note of it, 
shows that 47 percent of those who were polled said that they 
were sexually harassed at the military academies. It is an 
astonishing number. And we all know, I think, that oftentimes 
sexual harassment can lead to sexual assault.
    What are we going to do about the fact that almost half of 
the cadets feel they are sexually harassed?
    Dr. Van Winkle. I think whether we are talking about the 
academies or the Active Duty, the number of cadets, midshipmen, 
Active Duty service members that are experiencing sexual 
harassment is too high.
    What we know from the data is there is--we learn from it, 
and there is a range of behaviors that fall under sexual 
harassment, ranging from sexual quid pro quo to those 
behaviors, inappropriate comments, gestures, jokes. We know 
from our data that that latter point, which is persistent and 
severe, is what most of our members, cadets, and midshipmen are 
experiencing.
    And I think the Department is really focusing on beginning 
to mobilize and empower the cadets and midshipmen themselves. 
And as I mentioned in my opening statement is to really empower 
them to start to be more invested in this area and to start to 
step in if they see something and to be more engaged in this so 
we can--we can start to address some of these issues.
    Ms. Speier. Any other comments? General Caslen.
    General Caslen. Yes, ma'am. We do recognize and acknowledge 
that people talk to each other disrespectfully, and we upgraded 
training programs so that you can talk about the values of our 
institution--duty, honor, country--and the values of our Army, 
which include respect. And then we have also organized so that 
we now have grassroot Respect officers within the companies 
that when incidences like this occur, they will take action.
    I think you heard Mr. Russell ask the question about the 
Respect mentorship program that some cadets go through, that if 
a cadet is found to have disrespectful in one capacity or 
another, whether it is sexual harassment or another category, 
it would go through a mentorship program, and they must 
successfully complete it. It is a 6-month-or-so program.
    Ms. Speier. General, excuse me, but my time is expired, and 
I just want to get the last two answers, if I could. Thank you.
    General Caslen. Sorry.
    Admiral Carter. Yes, ma'am. The number is too high, it is 
unacceptable. We have more work to do there. I will say there 
are some glimmers of hope, and some of that is based on us 
improving the education that goes with this. Our midshipmen 
indicated, even in the survey, that 73 percent of the men would 
intervene and correct somebody that makes an inappropriate 
joke. And our women said 78 percent of them would also 
intervene.
    We've held midshipmen accountable for sexual harassment. 
We've separated some of them, even though the reports don't 
match the number that indicate that's out there. I mean, we 
have held four midshipmen accountable through either 
remediation or separation, but we have to do better.
    General Johnson. And ma'am, if I could add. I think the 
culture and climate are very much a part of this, so that is 
why we are really encouraged about what is happening in the 
athletic department with the healthy relationships sessions 
they have had to really talk through some of these things.
    And it goes beyond sexual harassment and just 
relationships. We pick it up from the culture and from my 
minority cadets of what they--what they worry about back home. 
They are from some place. They are from Ferguson. They are from 
Jewish communities. They are from other communities where there 
is concern that they need to come in and make sure they all 
feel safe with us, and we are focused on that.
    We just hired a chief diversity officer with college 
experience to help build bridges across our programs at the 
Academy as well, so that if we can have this culture of respect 
and dignity, we can touch all these things.
    Ms. Speier. Thank you.
    Mr. Russell [presiding]. And the chairman will return. He 
had to take an important call, but I will now recognize myself, 
who was next in the order, for 5 minutes.
    Thank you, Dr. Van Winkle. It is good to see you again, and 
thank all of you for the important work you do building future 
leaders. While it is a sensitive topic, and it is one that is 
unacceptable, and we would all be in agreement of that, we 
can't lose sight of the fact that our Nation relies upon the 
product that you produce for its very defense, and that is 
still very, very sound, in my estimation.
    One incident is too many, but the trend is down over the 
last 7 years, and we can take a snapshot at 2014. However, what 
we do see is a bit of decline since these new programs and 
incidents have been implemented.
    Lieutenant General Johnson, you made mention that a third 
of the victim support is from incidents prior to military 
service, so would the statistics include that reporting, or is 
that something altogether separate?
    General Johnson. Sir, there are various documents, but the 
one when we say have 32 reports less 30, it included----
    Mr. Russell. So that----
    General Johnson [continuing]. It included everything that 
was happening that they reported, because the reports are 
registered when they are reported, not when the incident 
happened.
    Mr. Russell. I see.
    General Johnson. So in these case management groups we have 
every month, we may have victims without subjects because the 
subject was someplace in a hometown or in another base.
    Mr. Russell. So based on that comment, it is possible that 
the actual incidents in the academies would be lower than the 
statistical reporting. Is that correct?
    General Johnson. They could be sometimes.
    Mr. Russell. Thank you.
    General Johnson. But we are glad the victims come to us for 
care.
    Mr. Russell. Sure. No, I understand. And that was an 
important insight that I didn't realize before.
    What we have heard in the previous panel, and even in some 
of your comments, is that the programs are sound, but the 
implementation still needs a lot of attention, and I think we 
see that attention being done.
    But I also want to point out, as I look at the dates that 
these programs have been implemented and I look at your tenures 
at the academies, they seem to coincide with the implementation 
of these programs, and I think it is important that we get that 
on the record.
    University statistics are far worse by comparison. It 
doesn't make any of the behaviors acceptable, but it is worth 
noting, and I think it speaks not to the failure of the 
military in addressing this problem, but actually that it has a 
36 percent better performance rate over our universities and 
colleges nationwide.
    And while every incident is unacceptable, I think that our 
colleges and institutions can learn from our service academies, 
particularly in the NCAA field with--and you spoke to that, 
General Johnson, about the teams as they are out competing, and 
yet their performance and behavior is almost without flaw when 
compared to other NCAA teams, and I think that that is also 
worth noting.
    And so while the military has a culture of identifying 
problems, and it has a culture of bringing these to light 
because that is the culture, we can't lose sight of the fact 
that we see at our colleges and universities a much greater 
degree of a problem.
    Effectiveness of academies is unique and steeped in 
tradition, 151 Medal of Honor recipients from the service 
academies. All the iconic leaders that we have seen in our 
Nation's history come from the Academy. That is why it 
important that we get this right.
    But I am satisfied, as I look at some of this, that we need 
to learn from those that have experienced this, we need to take 
this, but I am not ready, as some of my colleagues may be, to 
say that the military is completely broken and that those that 
are in uniform as leaders have no compassion, no understanding, 
have no clue about what harassment is or that it is some 
culture that is going to innocently target civilians, it is 
going to have absurd rules of engagement or it is going to have 
an environment where our men and women in uniform are not 
respected. That is not the values that I experienced in 
uniform, and I think that it is important that we bring these 
facts to bear.
    And with that, I will now recognize the lady from Arizona. 
Oh, I am sorry. I got out of sequence because of the sitting in 
the chair, and I apologize to Ms. Tsongas. Please, 5 minutes.
    Ms. Tsongas. Thank you. And thank you to all of you here 
today and for all the very challenging work you have to do in 
preparing leaders for the future. I think what makes what you 
do so unique is you are preparing people for a particular 
profession, which is why we bring, I think, such increased 
scrutiny to some of these issues, and I do believe it is only 
appropriate
    And I, like Ranking Member Speier and others on this 
committee, do remain concerned about the high number of female 
cadets and midshipmen who reported experiencing sexual 
harassment. It is a broader issue, but it was 48 percent of 
female cadets who reported that and 29 percent of those females 
who reported experiencing gender discrimination. And for male 
cadets and midshipmen, the percentages were 12 percent for 
sexual assault and 5 percent for gender discrimination. And of 
all those who reported, 89 percent indicated that the sexual 
harassment, or just gender discrimination, was committed by 
another Academy student.
    So given that we had these remarkable women here today who 
were willing to tell their stories, and I felt it was important 
to ask them what they experienced in the culture that they felt 
made these numbers possible, and I thought it was really 
interesting what we heard from them.
    So one referenced a code of silence, that you inculcate a 
sense of loyalty among these young people. It is part of what 
they have to be in order to do their job well, but it comes 
with a downside, and that is the code of silence, so that you 
are seen to be disloyal if you come forward to report a crime 
or to report a harassment.
    Another one mentioned that there was a sense from the 
outset that women were unequal, that the physical standards for 
women were different, that women were segregated. So rather 
than--so much of what you are talking about is dealing with the 
one-on-one issues and how to stop some of the worse behavior 
and give cadets, or midshipmen, the tools to deal with it. I 
would like to ask how you are digging down deeper so that you 
think about the upside and downside at the same time, and you 
deal with it at that level rather than as it permeates the 
culture and makes it so much harder to deal with.
    I know this is not simple. These are institutions that have 
been primarily home to men for generations. We all are part of 
institutions in which change does not come easy. But I would 
really like to hear how each of you are thinking. As ever more 
women are coming into your academies, how you are thinking 
about getting it right from the outset so some of these numbers 
just don't rise to the level.
    I know the survey covered a lot of different behaviors, 
none of which are appropriate in a professional environment. 
That is the bottom line, none of which are appropriate. And how 
to think about making sure that you don't have to deal with 
them as they happen. They just don't happen.
    So I will start with you, General Caslen. And I haven't 
left you with very much time, so you each get a brief little 
opportunity to comment.
    General Caslen. I will go quick, ma'am. There is a lot 
there. First of all, I will just say thank you very much for 
your question. I think we are making progress on the code of 
silence because our reporting this year nearly doubled, and 
that means that there is a command climate where people feel 
that they are trusting the system better as compared to what 
you heard from our victims from previous years.
    If you are going to change a culture, you have to change 
behavior, and if you change behavior, it really is through--the 
way we look at that is through our learning program, our 
educational program, and I think in the entire process that we 
have learned from this particular survey, that is the area that 
needs most of the attention.
    What we fail to do, and I think you have asked what I 
have--we have thought a lot about this, is we failed to address 
the root causes, the root causes of sexual assault in our 
education programs. And this is--and we are now redoing our 
education program to address the root causes of sexual assault 
and to have better conversations about them.
    Ms. Tsongas. Admiral Carter, I am sorry. You don't have a 
lot of time, but----
    Admiral Carter. I have some similar answers, so I won't go 
over the same things that General Caslen mentioned, but part of 
this is understanding who you are. I mean, the demographics of 
who is at the Naval Academy has changed over even this time 
period where we heard from some of the victims. Almost 26 
percent of the brigade and midshipmen are women today, so they 
are no longer isolated anymore. Three of the last four brigade 
commanders were women. It is a meritocracy, and there is no 
issue with that across the brigade.
    Women are graduating at a much higher percentage than the 
men. Last year's graduation rate for women was 90.5 percent, 
and the men graduated 89 percent. So those speak to the 
actions, not the say, and I think that is part of it.
    Now, of course, the education is important. Getting down to 
the, as General Caslen mentioned, the root causes, we still do 
have some work to do, and that is where we have to get after 
the gender bias that shows up at the beginning of induction 
day.
    Ms. Tsongas. Quickly, General Johnson.
    General Johnson. In light of your time, ma'am, I will be 
very brief. But in two ways, one, gender forms in the 
discussion, sometimes with women to be able to level with each 
other, they also, at the cadet level, have asked that they make 
sure it is not always one gender because it is not just one 
gender's challenge. They want to have the men in the room so we 
can discuss it. So those kinds of things are maturing and 
bearing fruit.
    And just in a practical level, to something Congresswoman 
McSally mentioned early, boxing had always been a requirement 
in physical education in all the academies for the men until 
last year. Well, Navy was ahead of us in the 1990s, but now 
women box. It is the confidence you get that--the equilibrium 
between the programs, between the men and women are invaluable, 
so there is some little things that we can do that is symbolic 
to say we are all equals and can all be warriors.
    Ms. Tsongas. Thank you, and I thank you for your service, 
because I was fortunate to work with you, and I appreciated 
those years that I was able to, thank you.
    Mr. Coffman [presiding]. Ms. McSally, you are now 
recognized 5 minutes.
    Ms. McSally. Thank you, Mr. Chairman, and thank you all for 
your leadership and your service. I want to continue on that 
line. I think most of you were at the last panel, and we have 
had long discussions about this issue and a little bit today, 
Admiral, about that culture and the root cause issues.
    And again, I have experienced it. I have lived through it. 
I have witnessed it. And I don't have a Ph.D. in sociology, but 
I still believe, to this day, that somehow we are inculcating a 
culture of gender bias from the very beginning when we are 
training, and we have got to take a hard look at that.
    And it is counterintuitive, because if you try and address 
these issues, you have got a lot of people putting heat on you, 
the last thing you want to do is maybe look at a double 
standard and say, you know what, we need to make it a little 
bit harder on women in order to get to this. I get that. I am 
advocating that you take a hard look and to see where we have 
any double standards, because, again, I have seen this 
throughout my career.
    Anything that was well-intended, but, in fact, then breeds 
resentment, right, anything that makes it look like women are 
getting a break or getting easy then breeds resentment. So then 
you form this resentment, and then you let it cook in this 
environment, and then the adults go home at night and then you 
are wondering what is going on. And all this stuff we are 
talking about today about how we respond and how--and that is 
all great, but it is that underlying culture issue of how is it 
that somehow we are inculcating this potential gender bias, 
this potential resentment that are root causes of these issues?
    I want to really encourage you and I want to partner with 
you because I know those are potentially hard conversations, 
right? But I want to be a part of that. I just want to hear 
your perspectives on anything that you are thinking in that 
area.
    Again, you know, sometimes we are doing knee jerk 
additional training, but then what you do is you have the guys 
rolling their eyes saying what a waste of our time. We should 
be learning how to fight and kill the enemy, and now we are 
having to talk more about how to deal with women, and then it 
pisses them off more, and then that adds to more resentment and 
that creates more environment.
    Again, I have lived through it, so I feel pretty passionate 
about it. What are your thoughts, General Johnson, and go down 
the line.
    General Johnson. Ma'am, I will take a different angle on 
it. I think what we are seeing in these, the effective training 
that we are getting at for culture and climate are these small 
group discussions where people start leveling about how to 
interact with each other, and there is a lot of survey fatigue 
because of all the different measurements.
    That is why I would like to be able to have a step back, 
look at it holistically and see what it is actually telling us 
about it. What is encouraging in some of the measures is that 
the confidence people have that they can go tell someone who is 
an officer, enlisted, or another cadet, even the cadet leaders 
are more confident. And those kinds of things aren't just from 
surveys, but instead of making more surveys, how we are pulling 
those together and then getting in small groups and just 
leveling with them and just being frank.
    And I think that is what we have been afraid to do, because 
you are right, they are hard conversations and they are kind of 
taboo sometimes, but I think that is most effective, especially 
with this generation. They just want us to level with them and 
then they respond.
    Ms. McSally. Admiral Carter.
    Admiral Carter. Sometimes the answer is complicated as we 
have been talking about. You have to find where pockets of 
success exist and be able to know what volume of education, 
what type of program you want to drive to change the behavior.
    Ms. McSally. Yeah, I am not talking about training here. I 
am just asking you to take a fresh look at the culture and what 
we are inculcating from day one?
    Admiral Carter. That is where I was going, ma'am.
    Ms. McSally. Yeah.
    Admiral Carter. We did this across our cadre of athletes 
across the whole spectrum, which is a third of the brigade, and 
we took a measured approach to go after that cadre because we 
knew that was a cohort that we needed to pay close attention 
to.
    We issued them a code of conduct, or behavior, that was no 
different than what was already in midshipmen regulations, but 
made them read that and understand. We also made it happen at 
the coach level. And then we took the team captains, who we 
specifically picked, not the best athletes but the best 
leaders, and we take all of those athletes with the brigade 
senior leadership, men and women together, to Gettysburg for a 
two-days in-depth leadership experience, case studies, and we 
talk about these issues that is what is fair and equal for 
everybody.
    We have seen, in this survey, changing behavior in our 
Division 1 athletes, and we have other schools approaching us 
as to how we are getting after that. So I haven't been able to 
put that across the whole brigade, but we do have a pocket of 
success there.
    Ms. McSally. General Caslen.
    General Caslen. Congresswoman, I think you have a great 
concept, a great thought there, the culture of gender bias. As 
we were talking about root causes, one of the ones I think that 
is related to that is what we call toxic masculinity, and it is 
an issue that our prevention education programs will begin to 
address in greater detail.
    Toxic masculinity is the locker room talk. It is the person 
who talks about his experience, and then it creates an 
expectation that everybody has got to replicate an experience 
like that when it is really not necessarily the case.
    And then coupled with that is force and coercion. So that 
if a couple has set boundaries and force and coercion says, 
keeps pressing for sex, for sex, and no, no, and then when no 
stops and there is no consent, and then a rape occurs. And then 
coupled with this other root cause is pornography, because 
pornography is prevalent in the--at least at West Point among 
the Corps of Cadets. And what pornography does is it creates 
objectivity of the other gender and creates an expectation of 
what the sex act ought to be like, and that is what has to be 
addressed in our root causes and education programs.
    Ms. McSally. Great. Thanks. I am out of time, but I do also 
want to follow up with you a theme from the first panel, which 
is some of this peer-to-peer stuff that is going on when it 
comes to disciplinary potential retaliation. Again, from my 
view, 19-year-olds and 20-year-olds being in charge of 18-year-
olds, I think we need to take a fresh look at it. Just because 
we have always done it that way, doesn't mean it is the way to 
do it, especially because we continue to have challenges in 
that area.
    Mr. Coffman. Ms. McSally, we will do a second round if you 
have any additional questions.
    Ms. McSally. Okay. Thanks.
    Mr. Coffman. Ms. Shea-Porter, you are now recognized for 5 
minutes.
    Ms. Shea-Porter. Thank you, and thank you all for being 
here and to the first panel as well. It is very enlightening. I 
dated a boy years and years and years ago at the Academy at 
West Point, and I have to say that I am disappointed and 
shocked at where we have gone and where our culture has gone 
for this, that it is just so visible and so prevalent, and that 
there is like witnesses without commenting or coming forward 
and telling their stories.
    And I recognize, I have heard the military say this before, 
that you are reflecting the culture at large, and I have 
sympathy for that, but I also recognize, just from my college 
days, that that is a different culture where you have a lot 
more authority. And I can remember when this boy I was dating 
was so excited about getting out that he took the elevator, and 
I guess in those days you couldn't take the elevator, and we 
lost the day together. And I remember thinking: Wow, that is 
really amazing.
    And so you have that power and authority, and they know 
that. They know that. And so I am wondering how you are using 
that. Is that you don't always want to be in the discipline 
mode, I understand that, but it is a core issue here about 
discipline.
    So I am going to ask you to tell me just two things: First 
of all, when somebody is applying for these schools, what 
conversation do you have about what happens if they sexually 
harass or assault?
    The second question I have is: What happens when there is a 
case at the school? Does everybody get called in? Is this 
something where it is still like a group understanding that 
this guy is out or this woman is out, and you will be out next 
and reinforcing that kind of discipline of what will happen to 
them, because we are still not seeming to be able to scare them 
enough. And sometimes, you know, that fright part--I went to 
Catholic school as a kid. I think there is an element to that 
as well.
    But we are missing something still, and I see you all 
struggling to figure out exactly, you know, when you talk about 
all the corps stuff, but what about that part of it? What are 
you saying to them when they first enter, when they apply, do 
they have a statement they have to sign saying you will be out 
and you will--all that hard work you did will be for nothing, 
and your family and your community will know that you lost 
everything because you did this? And I would like each one of 
you to address that, please.
    General Caslen. Okay. I will go first. First of all, in the 
cadet's--or the candidate's application, there is no question 
in the application that says did you commit a sexual assault or 
were you found for sexual harassment. There is not a question 
in that. Of course, all of our candidates are nominated by 
Congress.
    Ms. Shea-Porter. Right.
    General Caslen. And I know Congress, in their nomination 
process, goes through the same sort of thing to try to assess 
the character of the individual that is going to be nominated 
to the military academies, and we look at that.
    We do require them to write an essay, and the essay is on 
character. And if in the essay we get a sense that there is an 
issue, then we will go back and explore it in detail, and that 
is our best way to gain an assessment on their character.
    On the crimes, when a crime occurs, or if there is an 
allegation of a crime, we then begin an investigation. The 
investigation is with our CID, and they do a very thorough 
investigation, and that is assuming that you have a victim that 
is willing to cooperate. If you have a victim that wants to 
report, and then, as you know, report restricted instead of 
unrestricted, it is a different thing altogether, because there 
is no investigation at that particular point. But we don't 
bring everybody in and talk to them. We do the investigation as 
you would for any other criminal that----
    Ms. Shea-Porter. Well, I understand that. If you didn't 
understand, let me change the way I asked that. If they are 
removed, if it turns out, you know, not--they have the same 
right to privacy until they figure out what exactly happened, 
but if it is determined that this happened and you remove them, 
do you tell the school? Because I know that happens in lots of 
places. As you know, we just lost our CEO, and here is why. We 
just lost a Member of Congress, and here is why. Do you do 
that?
    I just--I think like writing an essay maybe on what they 
consider to be sexual harassment and sexual assault before they 
come in, just so you get a sense of it--and you know, education 
is important. I am not saying education is not important, and 
awareness, and you know, understanding culture. And I 
absolutely agree with my colleague who made the statements 
about, you know, being careful about what we breed in terms of 
resentment. All that matters.
    But ultimately, can't we go to the front of it and say, you 
know, write us something about what you think constitutes 
sexual harassment, and tell us, you know, what you think would 
be crossing the line, and here is what we think so that they 
know when they come in.
    I just think we are not driving it hard enough when they 
show up. And then ultimately, if they are removed, why. So I 
welcome the Vice Admiral.
    Admiral Carter. We do a character assessment before they 
come in. We don't ask for an essay on sexual assault or 
harassment. If we have indication, and we have in the past, 
that somebody has been involved, then that is further 
investigated and that becomes an issue.
    They get education from day one on what the rules are, what 
the penalties are from day one, so they hear that within the 
first day of arrival. In terms of what education they get, we 
do training and present cases to the midshipmen. We call them, 
``XYZ cases.'' They are historical cases.
    The caveat to that is if there is a victim in which the 
cases involved is still at the Naval Academy, we wait till that 
person has graduated or left before we bring those cases 
forward, but we do review those to include fleet cases, so that 
they can see examples of, you know, what happens to those that 
go through the full legal process.
    Ms. Shea-Porter. Thank you.
    General Johnson. Just very quickly. We also have them write 
character essays, but they may not know. In fact, so we hit it, 
you know, right away in basic training with them and said: 
Look, we don't know how things were where you came from, but 
this is how we expect to treat each other. And that is what 
actually generates a lot of these reports of things that 
happened before they came to the Academy, and then we follow 
up.
    And because we do hit it from day one, and then all the way 
through the--every year, it is a 4-year developmental program 
to try and reinforce the consequences. And then in addition to 
the challenges of privacy, there is just understanding the 
judicial system. Sometimes, with cadets, they don't understand 
that if someone is acquitted, that means there is not a 
preponderance of the evidence. It doesn't mean the victim 
wasn't truthful; it is just that we didn't have the evidence. 
But we do have other tools that we can discipline the people 
with.
    And what our lawyers have helped do is sit down with our 
commanders and try to talk to the squadrons to say here is what 
happened, because they don't always understand it, because of 
privacy things may seem as though it has been not answered, 
but, in fact, it wasn't communicated well enough, and our 
lawyers have helped us find a way to do that to avoid violating 
privacy but explaining to their cohorts what just happened, 
just as you said.
    Ms. Shea-Porter. Well, I know that most of them are 
tremendous men and women ready to serve their country working 
very hard, but I think we need to think a little outside the 
box, and you know, put a little bit more into that mix there. 
And I thank you all for your service and your work trying to 
eradicate this. I yield back
    Mr. Coffman. Thank you. Mr. Bacon, you are now recognized 
for 5 minutes.
    Mr. Bacon. Thank you, Mr. Chairman. Thank you for being 
here. Sorry for being a little late. I was on the House floor 
speaking on this very subject for that. And I know this is a 
bipartisan effort. I know you share in the effort as well. We 
want safe academies. We want the world's best military. We want 
a respectful environment. I know we are working together on 
that.
    I wanted to ask you, is there--and this may have been asked 
already, but I just want to make sure for the record I 
understand. Is there any legislation that we can pass through 
the HASC [House Armed Services Committee] and through Congress 
that would support your efforts to combat this?
    I will just go down the line. Dr. Van Winkle, thank you.
    Dr. Van Winkle. I think we are looking at all of these 
issues carefully, particularly focusing on prevention efforts 
as well as the issues around retaliation, sexual harassment. We 
learned a great deal from this report, including the emphasis 
that leadership has had, and the cadets and midshipmen have 
indicated that they see their leaders as role models. But we 
also see some indications of where we can move the needle a bit 
more within the cadets and midshipmen themselves, as well as 
the cadet and midshipmen leadership chain.
    So we are really working to understand this issue better 
and how to combat it, and I think you are our partners in this, 
and we would like to continue to discuss with you how we can 
move this needle and appreciate your support on it.
    Mr. Bacon. General Caslen.
    General Caslen. I defer to Dr. Van Winkle and support her 
comments. The two areas that I get frustrated with quite often 
is the elements of reprisal, and the elements of sexual 
harassment, and some inconsistency between different various 
regulations and legislation, and I think if we just--we have 
had this conversation. We just collectively need to make sure 
that we define it properly for what is actually occurring and 
that we take the--you know, has the appropriate accountability.
    Mr. Bacon. Admiral Carter.
    Admiral Carter. I actually feel like I am resourced and 
have the right policies and tools to be able to adjudicate 
where necessary, and also drive the culture where it needs to 
be.
    Mr. Bacon. Thank you. General Johnson.
    General Johnson. Sir, likewise. I think we are resourced 
and we have the tools. I think as we look at holistically at 
the data we have, we can do a better job of understanding what 
it is really saying about where we are rather than chasing just 
the numbers, but to look at the trends and understand what is 
really effective in these programs rather than adding to them.
    Mr. Bacon. We want to be your wingmen in this effort, so as 
you see things that we can pass that will support your efforts 
in doing this, let us know. And I thought an example was last 
month we heard there was some ambiguity in the sharing of 
intimate pictures where the pictures were taken in a consensual 
manner, but then shared in a nonconsensual way, so we want to 
take away that ambiguity.
    So I am a cosponsor with the PRIVATE [Protecting the Rights 
of IndiViduals Against Technological Exploitation] Act. And so 
as we see things like that, let us know, and we will try to 
support it because we want to give you the right tools to be 
successful.
    Do you have any metrics of recent metrics to show that we 
are having some positive results? We will just go in the 
reverse order. We will start off with General Johnson.
    General Johnson. Well, sir, I think what we are encouraged 
about are these measures of trust in organizations. So at the 
Air Force Academy, our trust in the athletic department was 
really low when I arrived, and because of this healthy 
relationships program, this holding the athletes to the 
standards, similar to what my colleague pointed out at Navy, 
our athletic department has become really the champions in 
terms of confidence and them doing the right thing. And then 
not just the cadets, but the coaches, that they are leaders of 
character, and the leadership of our athletic director has 
really helped with that along the way.
    So, I think also the measures of culture and climate, 
again, trust in the mid to 90s--mid 90s of percentages. And in 
part, to do the right thing in case of a sexual assault and for 
the other cadets, those kinds of trends of trust are 
encouraging that we are in the right direction. Obviously, we 
have still got to stay after it. Thank you.
    Mr. Bacon. Thank you, General Johnson. Admiral Carter.
    Admiral Carter. The increase in our reporting and the 
significant jump over eleven reports in 2015 and 2016 that were 
restricted, turned in unrestricted reports, and our focus on 
our Division 1 and club sport athletes showed a significant 
change in their propensity to be in the perpetrator's side, and 
that was a distinct effort that we made.
    Mr. Bacon. Thank you. General Caslen.
    General Caslen. Well, like the Naval Academy, our reporting 
has almost doubled. That is really a strong metric, and we are 
very pleased to see that because it shows confidence within the 
programs and the systems and that climate.
    Our substantiation rate of investigations is one of the 
highest in the Army, and we are very proud of that. One metric 
that I am very concerned about is cases that fall in the U.S. 
magistrate. I just can't get them to take a case to save my 
life, you know. I think in 4 years they have taken only one 
case, so I am very glad to be able to have the tools that we 
have as a commander.
    Mr. Bacon. Thank you. Dr. Van Winkle.
    Dr. Van Winkle. Yes, briefly. The infrastructure that we 
have right now within the academies is sound and very good. We 
continue to get good feedback on that in terms of the support 
systems we offer, the special victims' counsel and victims' 
legal counsel, the victim advocates, the training and education 
process, the infrastructure we have is very sound, and the data 
that we get back supports that, as well as trust in the 
leadership and willingness to intervene if they see something.
    Mr. Bacon. Okay. Thank you. I will just close my portion by 
saying I know it takes leadership at every level to make this 
successful. Continue communications, you can't just say it 
once. I have learned that as a five-time commander. It has got 
to be repeated communications, and I know you are doing that, 
and it has to be at every level. But also holding people 
accountable as you found them guilty and let people know, hey, 
this is what happens when you--this guy is going to jail and 
don't let it happen to you. Thank you. I yield back.
    Mr. Coffman. Ms. Speier, you are now recognized for 5 
minutes.
    Ms. Speier. Thank you, Mr. Chairman. I have a couple of 
quick questions. I am going to try and get this all in.
    Alcohol is a component of sexual assault in 50 to 60 
percent of the cases. Half the Academy student body is 
underage. There have been lots of examples where there is a 
reluctance to report for fear that you will--reluctance to 
report a sexual assault for fear that you will get hit for 
underage drinking. Have we done anything to address that at the 
three academies? If you could be very brief in your responses.
    General Johnson. I will jump in. Ma'am, just what we try to 
take into account is the egregiousness of the offense and then 
balance that with the trauma that it might cause to the victim 
and just sort it out.
    So, in fact, a case of a cadet you talked to when you 
visited us, I think, had a letter of counseling so that she had 
been underage drinking. We have to uphold standards, but we 
have to take into account their trauma. A letter of counseling 
is different than if we had adjudicated in a different way, so 
that it goes away when they graduate but it still says you need 
to uphold standards, but it is not as severe as it might have 
been on its own.
    We also would consider--there are times you consider 
immunity entirely, but we try to balance it out with, again, 
the welfare of the victim, but also upholding standards in good 
order and discipline, so I think that is what all of us try to 
consider.
    Admiral Carter. We won't adjudicate a lower level conduct 
issue against a victim until their case is completed. We don't 
often look at an immunity unless it makes sense. We will come 
back and look at that afterwards for whatever level we have to 
deal on the victim's side.
    Ms. Speier. Okay.
    General Caslen. We are very sensitive to cases of 
collateral misconduct because we know that is an impediment to 
reporting and an impediment to coming forward for--to support 
the investigation. So we take--like the Air Force and both Navy 
said--it is significant extenuation and mitigation, and we take 
it all in balance. Our education program addresses that in a 
big way, and that is one of the root causes that we also 
address in that way.
    Ms. Speier. Thank you. Dr. Van Winkle, I am not going to 
ask you to speak now, but if you could give me your thoughts at 
some later point in time, I would appreciate it.
    [The information referred to can be found in the Appendix 
on page 119.]
    Ms. Speier. Okay. There have been cases where victims of 
sexual assault at the military academy were then given 
antidepressants or other drugs to help them deal with the PTSD, 
and then because they were on drugs, were not commissioned. 
What are we doing about that?
    Admiral Carter. I will answer first. First of all, one of 
the reasons we have a sabbatical program is to allow somebody 
to heal so they can come back and be healthy, so they can go 
through and go forward in a commission. So we have already had 
two midshipmen depart. One has come back, and that is 
proceeding successfully.
    In some cases where somebody has had to go to drugs, we 
have actually had the opportunity to either hold them or waive 
them so they can go through a commission. So we do take that 
into account.
    Ms. Speier. Similar with the other academies?
    General Johnson. Yes, ma'am. There has to be review, and it 
is a medical review before they are discharged. And this also 
helps balance against retaliation to make sure that there is 
another look, unless someone has departed.
    General Caslen. I am not familiar with a case at West 
Point. That doesn't mean it did not occur, but I will take it 
for the record and get back to you.
    [The information referred to can be found in the Appendix 
on page 119.]
    Ms. Speier. All right. Thank you. Midshipman Craine 
referenced that in her situation, I think, she was moved. It 
appears more often than not when there is sexual assault or 
sexual harassment, that it is the victim that is moved, not the 
perpetrator. Are we looking at whether or not that is the 
appropriate action?
    Admiral Carter. Yeah, I would like to take that one since 
it was my active midshipman. We leave that, first of all, up to 
the victim first. As she pointed out it, it was her choice to 
move. Our first reaction is if the perpetrator is in the same 
company, we want to move the perpetrator while that person is 
either going through a legal review or some other process, but 
oftentimes the victim says, No, I would like to move, or I 
would like to take the sabbatical. So we make that an offer, 
and that is their choice.
    Ms. Speier. All right.
    Admiral Carter. The other point, just to finish off with 
Midshipman Craine. In her case, there was an opportunity for 
that to go all the way to court-martial. The victims actually 
had the choice to say, No, we will accept that perpetrator's 
dismissal from the Naval Academy, and that ended in a very 
positive way for the survivors.
    Ms. Speier. One of the data points in the report showed a 
prevalence of unwanted sexual conduct among women with higher 
in the upper classes than the freshmen. So there is something 
going on where upper classmen believe that they can sexually 
assault lower classmen, and there was some talk earlier about 
this role that upper classmen play in managing the plebes and 
freshmen.
    Dr. Van Winkle, can you comment on that in 3 seconds?
    Dr. Van Winkle. I can try. That is a data point we are 
looking at because over the years, what we traditionally see is 
that sophomores are the class year that have the highest rates, 
particularly as they go from freshman year where they are 
fairly locked down. So we have this sophomore year effect.
    This year was different with the juniors and seniors, so we 
really are taking a closer look at that to understand it 
better.
    Ms. Speier. All right.
    General Caslen. We think there is two reasons why that is. 
That has got my attention, and I am very concerned about it. It 
is--reason number one is now you are of age to drink alcohol, 
and because alcohol is such a high prevalence to potential 
sexual assault, at 50 to 60 percent as you mentioned, you are--
21 years of age occurs when you are normally a junior or 
senior, so that that has something do with it.
    The second thing it indicates is that those who have been 
in the program, or have higher prevalence indicates that our 
prevention programs are not producing what we want them to 
produce, which causes a reflection to see what we are doing and 
what we need to change, and that is where we need to address 
the root causes and address these root causes with the upper 
class.
    Ms. Speier. I yield back. Thank you.
    Mr. Coffman. Mr. Russell, you are now recognized for 5 
minutes.
    Mr. Russell. Thank you, Mr. Chairman. Each of you, in your 
testimonies, have spoken about substantiation rates and the 
validity of those. General Caslen, you had even mentioned about 
the magistrate not taking cases. This seems to convey a 
confidence in the justice of the military system.
    Could each of you please explain, the service academy 
chiefs, could each of you please explain the importance of a 
commander's query, 15-6, IG, CID investigations, you know, as a 
body of work, and if you believe that the UCMJ provides the 
best tool as opposed to civilian courts that we see in our 
universities, and yet the academies have the better performance 
rate.
    Every time these cases come up, immediately, the Uniform 
Code of Military Justice comes under some type of fire, and yet 
what we have heard in the testimony here today is that the 
substantiation rates are actually pretty solid. And so if each 
of you could comment on these commander's tools and the UCMJ. 
General Caslen.
    General Caslen. Well, the commander's--if an incident 
occurs and it is in the chain of command and the chain of 
command is going to do the initial investigation, that is a 
commander's inquiry to see if something is there.
    If it is a potential crime, we are going to turn it over to 
the CID, and the CID will begin the investigation. If it is not 
a criminal act but misconduct, we will probably do the 15-6. 
But I will give you some statistics here of, you know, our 
jurisdiction and some our substantiation rates.
    So looking at our CID cases over the last 4 years, to 
include this year, we have had--where I have had jurisdiction, 
we've had 47 cases. Of the 47, 21 were founded, and charges 
were preferred for 7 of the 21. And the other--and 8 of the 21 
had misconduct administrative investigations with 
administrative action that include separation.
    If I look at the cases where I did not have jurisdiction, 
there were 24, and although our CID still may have done the 
investigation, 8 of the 24 were founded, but since it was 
outside our jurisdiction, only one charge--once was charges 
preferred. So it is a significant difference from a case that I 
have jurisdiction for as compared to----
    Mr. Russell. So the actual results and substantiation and 
even punishments were higher under the UCMJ.
    General Caslen. Absolutely.
    Mr. Russell. Admiral Carter.
    Admiral Carter. The first thing I would say is our Naval 
Criminal Investigative Service increased the number of agents 
for not only the Navy but to also help at a place like the 
Naval Academy. So their timeline to get through investigations 
has improved just during the time I have been superintendent as 
an independent investigative body, and then they turn those 
results over to us.
    Over the last 2 years, 32 unrestricted reports; 19 of which 
were under my jurisdiction; 10 were advised by outside judge 
advocate generals through my lawyers to move forward for 
preliminary hearings; and of those, 7 either went through 
general court-martial or left the Naval Academy. So four of 
those actually went to general court-martial.
    So again, I think those statistics are significant and 
shows that we are resourced properly with the right 
authorities.
    Mr. Russell. Thank you. General Johnson.
    General Johnson. So thank you. Thank you. Likewise, we have 
2 of the 24 worldwide Air Force special victim investigation 
and prosecution capabilities at the Academy. So when our OSI 
[Office of Special Investigations] agents talk to our victims, 
they know how to do it in a way that when someone is 
traumatized, that they know how to discuss with them, so that 
it would help it be easier for them to report.
    And we have 9 of the 11 agents are graduates of the Air 
Force's sex crimes investigator training program, so we have 
the specialized training to do these investigations.
    And what we have seen is, is our accountability has 
increased. So in 2012 and 2013, we had 19 completed 
investigations, 3 court-martials, and 6 cadets were 
disenrolled, so that is only about a 50 percent accountability 
rate, and the next year's likewise.
    But in the last 2 years, we had 16 completed 
investigations, 5 resulted in criminal charges, 7 were 
disenrolled, and 4 adverse administrative actions, so 87 
percent. So--and then this last year was 86 percent. So because 
of the different tools we have, we can try to take it to court, 
and then we can also use other disciplinary tools to follow 
through, based on the investigations.
    Mr. Russell. Well, thank you for that. And Mr. Chairman, it 
seems to convey that the UCMJ is sound in these cases, and with 
that, I yield back.
    Mr. Coffman. I wish to thank all the witnesses for their 
testimony this afternoon. This has been a very informative 
hearing. There being no further business, this subcommittee 
stands adjourned.
    [Whereupon, at 7:00 p.m., the subcommittee was adjourned.]

     
=======================================================================

                            A P P E N D I X

                              May 2, 2017

      
=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                              May 2, 2017

=======================================================================

  [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
      
=======================================================================


                   DOCUMENTS SUBMITTED FOR THE RECORD

                              May 2, 2017

=======================================================================

    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
      
=======================================================================


              WITNESS RESPONSES TO QUESTIONS ASKED DURING

                              THE HEARING

                              May 2, 2017

=======================================================================

      

             RESPONSE TO QUESTION SUBMITTED BY MR. COFFMAN

    Dr. Van Winkle. Overall estimated rates of unwanted sexual contact 
measured in the 2016 Service Academy Gender Relations (SAGR) found that 
12.2 percent of Academy women and 1.7 percent of Academy men 
experienced some form of sexual assault in the year prior to being 
surveyed. The Active Duty measure of sexual assault in the 2016 
Workplace and Gender Relations Survey of the Active Duty (WGRA) is 
different, but produces statistically similar results as the estimated 
measure of unwanted sexual contact used at the Academies. The 2016 WGRA 
found that 7.7 percent of Active Duty women 18 to 22 years old and 1.0 
percent of Active Duty men 18 to 22 years old were estimated to have 
experienced some kind of sexual assault in the past year.   [See page 
37.]
                                 ______
                                 
             RESPONSES TO QUESTIONS SUBMITTED BY MS. SPEIER
    Dr. Van Winkle. Each of the Military Service Academies have 
policies in place for addressing underage drinking and collateral 
misconduct when sexual assault is involved. Each individual Academy is 
best positioned to provide you with their exact policies and practices 
regarding underage drinking and sexual assault. However, most of them 
observe the flexible response provided by DOD Instruction 6495.02 
``Sexual Assault Prevention and Response (SAPR) Program Procedures,'' 
which indicates that commanders may wait to administer accountability 
actions for alcohol infractions once the sexual assault has been fully 
investigated. The Instruction also encourages commanders to weigh all 
available evidence in determining appropriate accountability for 
collateral misconduct.   [See page 52.]
    General Caslen. To provide some context to the commissioning 
standard and USMA's approach to granting waivers; AR 40-501 (Standards 
of Medical Fitness), Ch 2, para 2-27-K, having a history of post-
traumatic stress disorder is a medically disqualifying condition for 
commissioning. In situations where the condition is not significantly 
impairing and is under good control a waiver can be granted. The 
decision to grant a waiver for commissioning is made during a Cadet's 
Firstie year. The fact that an individual is on medication does not 
determine whether or not they will receive a waiver. In the past 5 
years there have not been any Cadets with PTSD secondary to a sexual 
assault who were not allowed to commission at the end of their Firstie 
year because of treatment they were receiving. Given our standard of 
granting waivers if this situation were to occur, the fact that they 
were receiving treatment with or without medication would not be the 
determinant factor.   [See page 53.]

      
=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                              May 2, 2017

=======================================================================

      

                    QUESTIONS SUBMITTED BY MS. ROSEN

    Ms. Rosen. Why do you assess there to be a discrepancy between the 
increased incidents identified in the anonymous survey and the decrease 
in reported cases of sexual assault and harassment? Do you believe this 
to be a sign that victims have a severe distrust in the system to 
investigate and pursue justice, and/or a fear of retaliation?
    Dr. Van Winkle. The 2016 Service Academy Gender Relations Survey 
(SAGR) was administered to Military Service Academy students in March 
and April of 2016. The SAGR asks students questions related to personal 
experiences of unwanted sexual contact between June 2015 and the time 
they took the survey, which represents the past academic program year. 
In 2016, the SAGR found that 12.2 percent of female cadets/midshipmen 
and 1.7 percent of male cadets/midshipmen indicated experiencing 
unwanted sexual contact in the past academic program year (unwanted 
sexual contact is the survey term for the range of penetrating and 
contact sexual crimes).
    The survey rates allow us to estimate that about 507 cadets/
midshipmen experienced some kind of unwanted sexual contact in the year 
prior to the survey. During the same period, 64 cadets and midshipmen 
made a report of sexual assault for an incident that occurred during 
their military service.
    Based on these statistics, we estimate that about 13 percent of 
victimized cadets/midshipmen chose to report their incident of sexual 
assault. This is down from the 16 percent estimated in 2014. While the 
share of cadets/midshipmen who reported their incident decreased 
overall, figures varied by Academy. At USMA, we estimate that about 16 
percent of cadets/midshipmen who indicated they experienced unwanted 
sexual contact chose to report the incident, which is a small increase 
from 14 percent in 2014. Comparable figures for the Naval and Air Force 
Academies both show downward trends. The share of Navy midshipmen 
choosing to report their incident decreased from 17 percent in 2014 to 
11 percent in 2016, while the share of Air Force cadets choosing to 
report decreased from 17 percent to 12 percent during the same period. 
The survey data collected by the Department does not lead us to 
conclude that cadets/midshipmen have a severe distrust in the system to 
investigate and pursue justice. Rather, cadet/midshipmen responses to 
the survey indicated that the top reasons for not reporting a sexual 
assault allegation were they:
    <bullet>  Thought the incident was not serious enough to report.
    <bullet>  Took care of the incident themselves by avoiding the 
person who did it, forgetting about it and moving on, or confronting 
the person who did it.
    <bullet>  Did not want more people to know about the incident.
    Cadets and midshipmen who do decide to report endorse reasons that 
imply some confidence in the military justice system. For example, one 
commonly endorsed reason for reporting for female cadets and midshipman 
was to stop the person(s) (i.e., the accused) from hurting others. 
(Men's reasons for reporting were not reportable due to the small 
numbers of cadets/midshipmen in this survey category). In sum, the 
Military Service Academies are unique environments that present a 
number of challenges.
    Leadership at all levels of the Department is committed to better 
understanding these unique factors and spurring greater reporting of 
the crime.
    Ms. Rosen. What do you believe are the best measures to increase 
victims' confidence in the value of reporting, better protect them from 
retaliation, and foster a command climate where unwanted sexual contact 
is not committed against our brothers and sisters in arms?
    Dr. Van Winkle. The number of Active Duty Service members who 
report a sexual assault has increased over the last few years following 
senior leadership emphasis on the Sexual Assault Prevention and 
Response (SAPR) program, enhanced victim support services and 
protections, legal representation for victims, and changes to the 
military justice system. These changes have also occurred, over time, 
at the Military Service Academies (MSA). However, the unique 
demographic and environmental factors at the MSAs require an approach 
directed at young adults in a collegiate setting.
    Evidence suggests that greater cadet/midshipman involvement with 
the SAPR program may be essential to increased reporting and command 
climate improvements. The 2016 Service Academy and Gender Relations 
Survey asked why cadets and midshipmen who reported their sexual 
assault did so, and the survey allowed them to choose more than one 
reason. The survey found that nearly 70 percent of female cadets and 
midshipmen indicated that they reported the situation because someone 
they told about the sexual assault encouraged them to report. More than 
one-third indicated that they officially reported the situation in 
order to stop the alleged offender(s) from hurting others. In addition, 
about a quarter indicated that they reported to raise awareness that 
[sexual assault] occurs at the Academy. These findings suggest that 
those who made a report did so because they experienced some kind of 
external motivation. While each of the MSAs has a peer-led program that 
promotes the SAPR program, greater acceptance of the tenets of the SAPR 
program--dignity and respect--throughout the student body may encourage 
greater reporting, an improved climate, and ultimately, fewer sexual 
assaults.
    Ms. Rosen. Why do you assess Air Force Academy reporting to be 
significantly down while Annapolis and West Point have greater reports 
of unwanted sexual contact? Why are reports of sexual harassment down 
for all three?
    Dr. Van Winkle. Sexual assault reporting: We respectfully defer to 
the Military Service Academies to explain their year-to-year changes in 
the number of reports. Historically, United States Air Force Academy 
receives the largest number of sexual assault reports, but the totals 
have also fluctuated from year to year. Overall reports at United 
States Military Academy and United States Naval Academy show a small 
but steady increase over the past several years.
    In addition, the Department estimates the rate of reporting using 
data from official reports and comparing it to prevalence estimates 
from the Service Academy Gender Relations (SAGR). About 16 percent of 
cadets at USMA who indicated that they experienced unwanted sexual 
contact on the 2016 SAGR subsequently made an official report. This is 
an increase from 14 percent in 2014. Comparative reporting rates for 
USNA show a decrease from 17 percent in 2014 to 11 percent in 2016, 
while figures for USAFA show a decrease in the reporting rate from 17 
percent in 2014 to 12 percent in 2016.
    Sexual harassment reporting: The behaviors that constitute sexual 
harassment do not always rise to the level of criminal misconduct, and 
therefore these behaviors require a different response than sexual 
assault behaviors. Department policy encourages resolution of sexual 
harassment allegations at the lowest interpersonal level, meaning that 
cadets and midshipmen can address sexually harassing behaviors 
themselves, or by involving leadership. The formal and informal 
complaint processes in place at the Academies provide additional 
support and resources to address these problem behaviors.
    This statement is supported by results from the 2016 SAGR. Forty-
three percent indicated they took care of the problem themselves by 
confronting the person who harassed them.
    Ms. Rosen. Why do you assess there to be a discrepancy between the 
increased incidents identified in the anonymous survey and the decrease 
in reported cases of sexual assault and harassment? Do you believe this 
to be a sign that victims have a severe distrust in the system to 
investigate and pursue justice, and/or a fear of retaliation?
    General Caslen. The national average of case incidents to reports 
is roughly 1:6. USMA's average is generally 1:4. We believe that the 
increase in reporting we have seen this year is a key indicator that 
our Cadets are becoming more confident and trusting of the reporting 
process. We've seen an increase of over 50% from last year's reporting 
numbers. The issue of whether victims don't report as frequently as 
we'd like has much to do with what victims want and when. Justice and 
accountability are not usually immediate priorities for most victims, 
especially if the incident is not recent. The important thing we have 
focused on this year is key changes we made to our policy allowing 
third party disclosures without triggering an investigation and the 
establishment of a private, easily accessible SHARP Resource Center. We 
believe these changes have contributed directly to the significant 
increase in reports for AY16-17.
    Ms. Rosen. What do you believe are the best measures to increase 
victims' confidence in the value of reporting, better protect them from 
retaliation, and foster a command climate where unwanted sexual contact 
is not committed against our brothers and sisters in arms?
    General Caslen. Providing victims with support and assistance as 
they navigate the aftermath of a sexual assault incident is our primary 
effort within the Advocacy Program. Victims' needs are our first 
priority and while we prefer that every incident that occurs is 
reported and investigated, we know that in dealing with the crime of 
sexual violence that is not a reasonable expectation. These crimes cut 
to the core of the victims, and our key message is that Advocacy is 
done at the victims' cadence. When they are ready to move forward with 
an investigation, we make that transition in our assistance to them 
through the investigative and legal process. A key element to 
addressing retaliation and building a healthy command climate to 
protect victims who have reported an assault, are around increasing 
empathy and respect for any parties involved in a sexual assault 
incident. Many times behaviors that a victim experiences that feel like 
isolation and retaliation are a function of the fact that as they 
withdraw from their social circles due to being wary of who they can 
trust, which makes their social network uncertain about how to interact 
with them. It is a fundamental human reaction to withdraw in response 
to someone withdrawing. This natural human experience on both sides of 
a situation like a sexual assault will certainly create a sense of 
isolation that the victim will experience. The challenge for us in 
education is to highlight that while this may be natural, it is 
important for those who know anyone involved in an incident of sexual 
assault to be cognizant of how much peer support means in the overall 
experience of recovering one's sense of self-worth and dignity 
following this sort of personal trauma. We need to explore these issues 
in a healthy and productive manner within our education program and 
provide Cadets with strategies to manage the social discomfort that 
occurs in a small cohesive groups where an incident has occurred.
    Ms. Rosen. Why do you assess Air Force Academy reporting to be 
significantly down while Annapolis and West Point have greater reports 
of unwanted sexual contact? Why are reports of sexual harassment down 
for all three?
    General Caslen. We look at the increase in our reported incidents 
as a strong indicator that Cadets believe they will receive the support 
they need and want, regardless of whether they report restricted or 
unrestricted. We look at this over time as a key indicator that our 
Advocacy, Investigation and Accountability processes are effective and 
we continue to build on these successes. This is what we know about 
USMA's reporting. We do not have enough information about the issues at 
the other MSAs to make an assessment as to why these reporting 
differences exist. Sexual harassment reports are likely down because in 
our education program we discuss three ways to deal with harassment, 
one being directly confronting the harasser. This may be one reason the 
reports are decreasing because Cadets are handling the matter 
themselves and the behavior stops.
    Ms. Rosen. Why do you assess there to be a discrepancy between the 
increased incidents identified in the anonymous survey and the decrease 
in reported cases of sexual assault and harassment? Do you believe this 
to be a sign that victims have a severe distrust in the system to 
investigate and pursue justice, and/or a fear of retaliation?
    Admiral Carter. There are many reasons why victims or survivors 
choose not to report an incident of unwanted sexual contact. Incidents 
of unwanted sexual contact can range from unwanted touching to 
penetration. The Annual Report on Sexual Harassment and Violence at the 
Military Service Academies (MSA) for Academic Program Year 2015-2016 
identified an increase in overall prevalence from the 2014 levels but 
an overall downward trend since 2010. This suggests general progress 
but with a lot more work to do.
    For the Naval Academy, reporting rates continued to increase; we 
think this indicates that we are gaining the trust of the midshipmen. 
Notably, there were 11 conversions from Restricted Reports to 
Unrestricted Reports where the previous four years saw 4 total 
conversions. MSA Report Data suggests that the midshipmen are trusting 
of their chain of command. Midshipmen willing to seek help from the 
chain of command increased to 88%.
    Ms. Rosen. What do you believe are the best measures to increase 
victims' confidence in the value of reporting, better protect them from 
retaliation, and foster a command climate where unwanted sexual contact 
is not committed against our brothers and sisters in arms?
    Admiral Carter. The Annual Report and Violence at the Military 
Service Academies (MSA) for Program Year 2015-2016 indicated that our 
response efforts continue to improve. Reports by victims continue to 
rise at the U.S. Naval Academy (USNA), which we believe is an 
indication of increased trust in our system. Some probable reasons for 
this improvement can be attributed to the continued efforts of our 
dedicated and caring response personnel. USNA has two Sexual Assault 
Response Coordinators, a dedicated team of Victim Advocates, and a 
recently added (2013) Victims' Legal Counsel. We also have a recently 
added Sexual Assault Trauma Counselor at our Midshipman Development 
Center to complement our continued support from Chaplains, and medical 
personnel, all of whom put the survivors' care as priority #1. We have 
relocated the Response Office out of the dormitory where all could see 
victims seeking assistance, to a nearby, but private location. The 
leadership continues to emphasize confidentiality to those that need to 
know, and where evidence supports, holding perpetrators accountable.
    With regard to retaliation, the MSA reported extremely low 
incidents of retaliation. The USNA complies with the DOD Quarterly 
Reporting requirements of retaliation and have no reported incidences 
this Academic Program Year. The report did find there was evidence of 
peer-to-peer retaliation happening on social media. We are addressing 
those challenges in both our Sexual Assault Prevention and Response 
(SAPR) efforts and our leadership training.
    Ms. Rosen. Why do you assess Air Force Academy reporting to be 
significantly down while Annapolis and West Point have greater reports 
of unwanted sexual contact? Why are reports of sexual harassment down 
for all three?
    Admiral Carter. We do not know what the reasons are for the decline 
at the Air Force Academy, however, our increase in reports is viewed as 
a sign that we are successfully increasing the trust of our midshipmen 
and active duty Sailors to come forward and seek help. The success of 
our response efforts must now be complemented by positive efforts in 
our prevention program.
    Our midshipmen tell us that the reason that sexual harassment 
reports are decreasing is that they want to handle those situations on 
their own. Our prevention education gives them tools to address 
attitudes and beliefs and confront harassment situations at their 
level. Those skills are important as we prepare Junior Officers to lead 
in the Fleet and Marine Corps.
    Ms. Rosen. Why do you assess there to be a discrepancy between the 
increased incidents identified in the anonymous survey and the decrease 
in reported cases of sexual assault and harassment? Do you believe this 
to be a sign that victims have a severe distrust in the system to 
investigate and pursue justice, and/or a fear of retaliation?
    General Johnson. Though the prevalence of sexual assault for 
Academic Program Year (APY) 15-16 went up and the reports went down, 
the overall trend for both has been relatively stable over the last 10 
years, with prevalence trending down and reports trending upwards. This 
indicates a trust in leadership and the military justice process, and 
most cadets who formally report a sexual assault indicate that they 
would do the same again. The Service Academy Gender Relations (SAGR) 
anonymous survey also reports that cadet have confidence in their 
leadership to take reports seriously, protect their confidentiality, 
and ensure their safety. At the military service academies, as with 
society as a whole, most survivors of sexual assault never tell anyone 
about their assault. Reasons vary from not wanting others to know about 
the incident to feeling it was not serious enough to report. Unwanted 
sexual contact, as defined by the Uniform Code of Military Justice 
(UCMJ) as well as the SAGR survey, includes behaviors along a continuum 
of harm, from unwanted sexual touching to rape. Some individuals may 
not report instances that fall along the touching end of the spectrum, 
and in fact the SAGR showed that 40% of cadets addressed the unwanted 
behaviors themselves when it occurred. Further, 38% of reports in 2016 
were of incidents that occurred prior to military service, and we 
support victims with our programs regardless of when or where sexual 
misconduct took place. The reports of prior assaults are also a sign of 
trust in the system and in leadership. At USAFA, we follow every court 
case with a statement from leadership that includes guidance from Judge 
Advocate (JA) to ensure cadets understand the process and support those 
who come forward to report these crimes. When a victim chooses to ask 
for help, whether through a restricted or unrestricted report, we 
immediately offer support and ensure that all resources are available 
for their recovery. All incidents across the spectrum of harm are 
reported and taken seriously. Our multifaceted approach that incudes 
education, accountability, and a robust victim support system is 
central to our effort to foster a positive climate of trust that is 
free from the fear of retaliation.
    Ms. Rosen. What do you believe are the best measures to increase 
victims' confidence in the value of reporting, better protect them from 
retaliation, and foster a command climate where unwanted sexual contact 
is not committed against our brothers and sisters in arms?
    General Johnson. One way in which we are looking to increase victim 
confidence is enhancing our communication to cadets about outcomes of 
cases that did not go to court-martial. We have a strong process in 
place to advertise and educate about court-martial outcomes, but given 
that most cases are resolved outside of the court-martial process 
(unbeknownst to most cadets), we are exploring ways to communicate 
those administrative outcomes, while also protecting privacy, so that 
cadets understand that accountability can take many forms. Many of 
those forms of accountability, even though not courts-martial, are 
based on the input and desires of the victims, and not all victims view 
a court-martial conviction/jail as the optimal outcome. This also helps 
to educate cadets about due process, and shows that no matter what the 
outcome there is a process in place to balance the rights of the victim 
and the accused. When individuals truly understand the dynamics of 
offending, and victimization and reporting is seen and valued as 
courageous, victims may have more confidence to report. When victims 
trust that they will be believed and supported they are more likely to 
tell others, formally through reports or informally for support. When 
sexual assault is no longer seen only as a female issue we may see more 
men reporting and less women being ostracized for being a victim of a 
crime. When victims see that justice, however they define it for 
themselves, whether through the legal process, being heard, or being 
supported to heal, does come from reporting, others will see the value 
in reporting. When all, and not just victims, see the value in 
reporting, we will reduce retaliation. Until then, we ensure victim 
privacy and provide support emotionally, psychologically, legally, and 
academically, and we will actively address issues of retaliation if 
they should occur.
    At USAFA, we are building the proper foundation for a climate where 
sexual assault is not committed or tolerated, and it starts with 
education and leadership and character development. Leaders at all 
levels are charged to foster a climate that eliminates sexual assault 
and develops a force that shows respect for all human dignity--owning 
the problem across every mission element, from top to bottom.
    Ms. Rosen. Why do you assess Air Force Academy reporting to be 
significantly down while Annapolis and West Point have greater reports 
of unwanted sexual contact? Why are reports of sexual harassment down 
for all three?
    General Johnson. USAFA's reports have fluctuated more than the 
other two academies, which have a steadier incline, yet USAFA 
consistently has the most reports of sexual assault, to include in APY 
15-16. We all have the goal of increasing reports and supporting 
victims as they make the decision to report. The 2016 Military Service 
Academy Defense Equal Opportunity Climate Survey (MSA DEOCS) shows that 
61.8% (57.3) of the people who experience sexual harassment did not 
report the incident to anyone. Of those people who experienced sexual 
harassment at USAFA and did not report, 66.7% (72) of men, and 71.4% 
(71) of women did not report because they did not think it was 
important enough. 33.3% (12) of men and 25% (29) of women listed fear 
of reprisal. The MSA DEOCS does not give a clear indication of where 
that reprisal might come from regarding specifically sexual harassment; 
however, Table 28 did show 45.3% (39.4) of men 58.9% (58.1) of women 
selected negative social outcomes for reporting fellow cadets for 
misconduct. Although, not specific to sexual harassment, these numbers 
lead Equal Opportunity (EO) to believe there is a fear of reprisal from 
the cadets' peers, creating an environment where men and women do not 
believe the issue was important enough, considering the social 
ramifications. Culture change in cadets measuring professionalism 
versus social pressures is essential, as well as creating trust in 
leadership, the EO office, and other helping agencies is a critical 
challenge. The measures we have taken thus far were to move the EO 
office closer to cadet area, and implementing an increase of EO 
training for leadership and cadets.

                                  [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
